   August 8, 2003




Logistics


F/A-18E/F Integrated Readiness
Support Teaming Program
(D-2003-120)




              This special version of the report has been
              revised to omit contractor proprietary data.




              Department of Defense
          Office of the Inspector General
Quality                 Integrity                 Accountability
  Additional Copies

  To request additional copies of this report, contact Henry F. Kleinknecht at (703)
  604-9324 (DSN 664-9324) or Patrick J. Nix at (703) 604-9332 (DSN 664-9332).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

BCA                   Business Case Analysis
FIRST                 F/A-18E/F Integrated Readiness Support Teaming
GAO                   General Accounting Office
LRIP                  Low Rate Initial Production
NAVAIR                Naval Air Systems Command
NAVICP                Naval Inventory Control Point, Philadelphia
NSN                   National Stock Number
NWCF                  Navy Working Capital Fund
OEM                   Original Equipment Manufacturer
           Office of the Inspector General of the Department of Defense
Report No. D-2003-120                                                      August 8, 2003
   (Project No. D2001CF-0100)

         F/A-18E/F Integrated Readiness Support Teaming Program

                                  Executive Summary
Who Should Read This Report and Why? Senior acquisition, logistics, and supply
managers should read this report. This report discusses an initiative with The Boeing
Company (Boeing) to independently manage a total logistics support program for Navy
F/A-18E/F peculiar aircraft components.

Background. In June 1999, the Naval Air Systems Command prepared a business case
analysis outlining the benefits that DoD would derive from teaming with industry to obtain
total logistics support for the F/A-18E/F aircraft, referred to as the F/A-18E/F Integrated
Readiness Support Teaming (FIRST) Program. The business case analysis showed a
30-year cost avoidance of $1.4 billion that was based on a comparison of costs associated
with the teaming initiative for seven major cost elements to those costs without the
initiative. The Naval Air Systems Command used the business case to justify entering into a
teaming arrangement with Boeing. However, lacking sufficient program funds for the
effort, the Naval Air Systems Command requested that the Naval Inventory Control Point,
Philadelphia (NAVICP) provide assistance through the Navy Working Capital Fund.

To provide assistance, NAVICP prepared its own business case analysis based on a 5-year
period that addressed costs associated with the infrastructure and processes included in the
supply support element. The Navy used the results of that business case analysis in
combination with the first 5 years of savings shown in the Naval Air Systems Command
business case analysis for the other integrated support elements to demonstrate compliance
with the cost and benefits savings requirements of the Strom Thurmond National Defense
Authorization Act for Fiscal Year 1999, Public Law 105-261, October 17, 1998, section
346, as amended, and support for its award of the FIRST contract. The NAVICP business
case showed that traditional in-house support would cost $887.1 million versus contractor
support at $834.7 million, a difference of $52.4 million. The Naval Air Systems Command
business case claimed an additional cost avoidance of $73.7 million. This review focused
on the $126.1 million in combined savings the Navy claimed would result in the first 5 years
of the FIRST Program and the subsequent contract awarded to Boeing on May 9, 2001, to
implement the program. The contract was a cost-plus-incentive-fee contract with award fee
provisions and had a target price of $218.7 million for the 2-year base period.

Results. Although the Navy attempted to embody the concepts of performance-based
logistics in the FIRST contract, we question the costs used to support its business case, the
performance achievements the Navy will actually obtain, and the metrics used to evaluate
performance. The business case used to justify award of the FIRST contract for life-cycle
support of the F/A-18E/F peculiar aircraft components overstated the cost of DoD
performance. As a result, the savings the Navy claimed to support the contract award were
incorrect. We calculate (using data not always available when the business case analysis
was prepared) the NAVICP business case analysis actually showed a cost increase for the
FIRST Program of $153 million and the Naval Air Systems Command savings were only
$10.2 million. Thus, the corrected Navy business case analysis actually showed the FIRST
Program cost $142.8 million more the first 5 years than for the traditional support.
Developing a methodology and issuing guidance for preparing a business case analysis and
preparing a new business case analysis for the FIRST Program should determine whether
the FIRST Program represents the best value for the Navy and whether exercising future
contract options is appropriate (See finding A for the detailed recommendations).

The FIRST contract did not effectively implement the material management and reliability
improvements the acquisition plan for the FIRST “performance-based” concept describes.
As a result, NAVICP cannot achieve the 13-percent life-cycle cost reduction expected from
the FIRST Program. In addition, FIRST Program infrastructure support costs were difficult
to measure, and we calculate the Navy Working Capital Fund’s portion of the FIRST
Program infrastructure support costs (Boeing and Navy) was running about 77 percent
(minimum) of spare part or repair cost versus the intended 34 percent. Finally, the Navy
funded more than $54.4 million for inventory that it stores in the Boeing commercial
warehouse to support the program, significantly reducing the performance burden on
Boeing. Navy customers were also overcharged more than $12.1 million by the Navy
Working Capital Fund for 114 parts reviewed. Establishing metrics and assessing Boeing’s
effectiveness at achieving the performance expected, tracking actual support costs as a
percentage of material issued, determining whether the Navy Working Capital Fund’s
portion of Boeing support can be performed for the intended 34 percent, shifting
responsibility for maintaining inventory to Boeing, eliminating all Navy-owned inventory,
requiring Boeing to purchase all of the parts directly from the original equipment
manufacturers, and charging customers prices based on actual costs should bring
improvement to the shortcomings identified with the FIRST Program (See finding B for the
detailed recommendations).

Management Comments and Audit Response. The Navy did not agree with either the
findings or recommendations. Although the Navy did partially concur with some of the
recommendations, the Navy comments were not responsive. The Navy believed it used an
appropriate methodology to prepare its business case analysis for the FIRST Program and
that the business case analysis initially used to justify award of the FIRST contract was fully
supportable. A primary area of contention was that the Navy did not believe the traditional
supply system could obtain both spares and repairs at the same prices Boeing was able to
obtain under the FIRST contract. We found no reason the traditional supply system could
not obtain the same or better prices that Boeing obtained under the FIRST contract. In
addition, the FIRST acquisition plan states, “Even though spares prices are expected to be
higher because of direct Boeing supply, these increases will be offset by the other cost
benefits of FIRST.” The Navy also commented that it did not need metrics for tracking
repair cycle times and reliability improvements identified in the acquisition plan. However,
the Navy identified the repair cycle time and reliability improvements as desired objectives
needed to meet the estimated FIRST life-cycle cost reductions. The Navy did not agree to
track infrastructure support costs as a percentage of actual material costs but did agree to
charge customers prices based on actual costs. We fail to see how the Navy can do one
without the other. The Navy agreed that Boeing should own “undelivered” consumable and
repairable inventory under a firm-fixed-price contract but did not address the $54 million of
Navy owned inventory in the Boeing warehouse. The Navy did not agree that Boeing
should procure items from the original equipment manufacturers to avoid pass-through costs
but failed to explain how the pyramiding of multiple burden and profit rates did not
adversely impact overall FIRST Program costs. Accordingly, we request that the Navy
provide additional comments on the final report by October 7, 2003. See the Findings
section of the report for a discussion of the management comments on the recommendations,
Appendix F for management comments on the findings and our audit response, and the
Management Comments section of the report for the complete text of the comments.




                                              ii
Table of Contents

Executive Summary                                                 i

Background                                                        1

Objectives                                                        2

Discussions With Navy Management                                  3

Findings
     A. Business Case Analysis for the Navy FIRST Program         4
     B. Performance-Based Logistics Support Contract for the
          F/A-18E/F Aircraft                                     18

Appendixes
     A. Scope and Methodology                                    29
          Management Control Program Review                      30
     B. Prior Coverage                                           31
     C. Index of Reviewed Parts                                  33
     D. Analysis of In-house Prices for Parts Reviewed           38
     E. Customer Overcharges                                     46
     F. Management Comments on the Findings and Audit Response   52
     G. Report Distribution                                      59

Management Comments
     Department of the Navy                                      61
Background
    This report discusses an initiative with The Boeing Company (Boeing) to
    independently manage a total logistics support program for the Navy F/A-18E/F
    peculiar aircraft components.

    DoD Logistics Support Strategies. DoD calculated that annually it spends about
    $59 billion on logistics support to operate and sustain weapon systems. DoD
    indicated that by adopting improved logistics support practices, those costs could
    be reduced as much as 20 percent. The General Accounting Office (GAO)
    reported that, in response to DoD direction in FY 1998, the Services began
    implementing logistics support strategies that rely on the private sector to provide
    most of the support that the Government traditionally provided.

    Navy Support Strategies. The Navy has undertaken a number of initiatives
    designed to transform its logistics infrastructure into a “lean, process-driven
    system where a single action by the customer activates a global network of
    sources that delivers best value products and services.” Improved customer
    support and total life-cycle cost management (reliability, maintainability,
    availability, and affordability) are the basic business tenets for accomplishing the
    challenge. The Naval Inventory Control Point, Philadelphia (NAVICP) has
    established a “performance-based” logistics program to meet the Naval Supply
    Systems Command assigned goal for improving support, reducing infrastructure,
    and lowering the Navy’s weapon systems cost of ownership. As of May 2002,
    the Navy had awarded 51 aviation performance-based logistics contracts under
    the program and had another 45 systems/items under evaluation.

    Rising Aviation Spare Parts Prices. Over the last 2 years, GAO issued two
    reports1 addressing the rising prices of Navy aviation spare parts. Specifically,
    GAO reported that the prices customers paid for Navy-managed parts had
    increased on average 12 percent from FY 1994 through FY 1999 and continued to
    rise on average 37 percent from FY 1999 through FY 2002 for three of the Navy’s
    weapon systems, the H-53 helicopter, the F/A-18, and AV-8B aircraft and their
    engines. GAO further reported that its examination indicated higher material
    costs contributed to the price increases, but stated that its ability to determine the
    reasons for rising spare part costs was impaired because the Navy lacked an
    effective data system for collecting and analyzing information relevant to material
    cost and usage. GAO stated the pricing data used in its analysis, which was
    obtained from NAVICP, had not been verified or validated.

    F/A-18E/F Aircraft. The E/F model of the F/A-18 aircraft has parts that are both
    peculiar and common to the A-D models. The Navy plans to buy a minimum of
    548 F/A-18E/F aircraft through 2010. The current multiyear contract shows
    288 aircraft are scheduled for delivery through FY 2006 and a total of 105 aircraft
    were delivered to the Navy through FY 2002. More than 1,200 A-D model

    1
        GAO Report No. GAO-01-23, “Prices of Navy Aviation Spare Parts Have Increased,”
        November 6, 2000, and GAO Report No. GAO-02-565 “Navy Needs Plan to Address Rising
        Prices in Aviation Parts,” May 31, 2002.



                                             1
            F/A-18 aircraft are deployed with the Navy, Marine Corps, and foreign militaries.
            The earliest version of the aircraft first entered Navy service more than 17 years
            ago and is expected to remain in service for another 20 years.

            The Naval Air Systems Command (NAVAIR) F/A-18 Program Office established
            an overall goal to reduce F/A-18E/F weapon system ownership costs by
            20 percent and evaluated options for a total support solution that would achieve
            and sustain Chief of Naval Operations readiness goals. Specifically, the support
            solutions included meeting demand requirements of the operational, intermediate,
            and depot sites, as well as repairing and replacing the parts, including those parts
            returned for repair that are determined to be beyond repair. As part of the
            evaluation, NAVAIR performed a Trade Study Cost Analysis, dated July 1999,
            on a proposed teaming arrangement with Boeing, the aircraft prime manufacturer,
            referred to as the F/A-18E/F Integrated Readiness Support Teaming (FIRST)
            Program.

            Program Establishment. On May 9, 2001, NAVICP awarded Boeing a 5-year
            requirements-type contract that established the Navy teaming arrangement with
            Boeing. The contract had a 2-year base period and included three successive
            1-year ceiling priced options. The base period was a cost-plus-incentive-fee type
            contract with an award fee provision based on performance requirements. The
                                                                           2
            target price for the base period was $218.7 million.                  The contract
            covered procurement of initial and replenishment spares for 519 repairable parts
            and 5,856 consumable parts as well as repair of the repairable parts. In the option
            years, the contract converted into a fixed-price-incentive-fee contract with an
            award-fee provision. The bulk of the repair work for the F/A-18E/F aircraft will
            be performed at the Naval Aviation Depot, California (North Island), as a
            subcontractor to Boeing. The contract gives Boeing responsibility for the support
            process for parts that are peculiar to the F/A-18E/F aircraft including
            responsibility for meeting system demand requirements, improving system and
            parts reliability and availability, and managing obsolescence. Boeing also
            became the supply chain manager for those parts, performing all the material
            management functions, including forecasting, parts management, transportation,
            distribution, and warehousing. The Navy plans to expand the scope of contractor
            support in the later phases of the FIRST Program to all E/F parts, including those
            parts common to earlier F/A-18 models.


Objectives
            The audit objective was to determine whether the cost savings, availability, and
            reliability data used in the business case analysis (BCA) the Navy prepared
            supported the decision to award a commercial contract to Boeing for life-cycle
            support of the F/A-18E/F aircraft. We also reviewed the management controls
            over the preparation of business case analyses used for supporting total logistics
            support decisions. See Appendix A for a discussion of the scope and
            methodology and Appendix B for prior coverage related to the objectives.

2
    This area of the report represents contractor proprietary data that has been deleted.




                                                         2
Discussions With Navy Management
            NAVICP Discussions. A working draft of this audit report was formally staffed
            with NAVICP management on November 13, 2002, and March 12, 2003.
            NAVICP management and Inspector General of the Department of Defense
            (IG DoD) management could not reach agreement on various issues. The
            following issues were the most contentious.

            NAVICP contended significant benefit is derived from dealing with 1 supplier
            (Boeing) versus more than 130 original equipment manufacturers (OEMs). While
            we agree dealing with one supplier is easier, we also believe that for such a
            benefit, pyramiding of burden and profit rates significantly increases the cost.
            NAVICP correctly recognized that fact in its acquisition plan. To illustrate,
            $1 million of material coming from an OEM can receive a 3 burden and
            profit factor from a Boeing supplier, not the OEM, and then also receive an
            additional 77-percent burden and profit factor from Boeing (includes Navy
                         3     4
            burden).               The Defense Logistics Agency charges its customers
            burden rates ranging from 30 percent to 50 percent to supply parts that are
            procured from OEMs. Using the 50-percent factor, the Defense Logistics Agency
            could supply the part to the Navy customer for $1.5 million versus the FIRST
            Program cost 3 . About 30 percent of the parts in our review were supplied in
            that manner.

            Because of Boeing’s ability to fully integrate spare buys with production and
            leverage vendor prices, NAVICP contended its business case savings of
            $52.4 million was valid and that the traditional supply system could not obtain the
            same prices as Boeing. While we agree that isolated instances where Boeing’s
            ability to integrate spare buys with production may have impacted prices, the
            majority of prices for the spare parts used in our analysis were not impacted by
            any integration with production. For example, Tables 5 and 6 show instances
            where the Navy business case price was clearly overstated and no impact for
            integrating spares buys took place. The OEM for the parts depicted in those
            instances uses a standard cost system for pricing spare parts that does not provide
            for economic order quantities. In both cases, the Navy was able to obtain small
            quantities of items directly from the OEM at prices significantly less than the
            Boeing price or the price used in the business case.

            President’s Management Agenda. As stated in the President’s Management
            Agenda for FY 2002, “program proponents bear the burden of proof to
            demonstrate that the program they advocate actually accomplish their goals, and
            do so better than alternative ways of spending the same money. . . . Many
            agencies and programs lack rigorous data or evaluations to show that they work.”
            We expect no less from the FIRST Program.
3
    This area of the report represents contractor proprietary data that has been deleted.
4
    [The portion of Boeing’s burden and profit factor attributed to the Boeing supplier was removed.]




                                                         3
          A. Business Case Analysis for the Navy
             FIRST Program
          The Navy BCA used to justify the award of the FIRST contract overstated
          the cost of DoD performance. That condition occurred because the Navy
          BCA used:

              •   unreliable data to calculate in-house consumable and repairable
                  item prices;

              •   an outdated matrix to calculate in-house repair costs versus
                  historical data from the naval depots;
              •   savings associated with NAVICP cost recovery rates for
                  obsolescence and net loss not justified;

              •   cost avoidances NAVAIR claimed relating to integrated logistics
                  support elements not fully supported or justified; and

              •   a nontraditional methodology to calculate the in-house cost of
                  managing consumable items.

          As a result, the $126.1 million savings (NAVICP, $52.4 million, and
          NAVAIR, $73.7 million) that the Navy claimed to support award of the
          FIRST contract was incorrect. The initial BCA met the savings
          requirements for entering into a prime vendor contract for depot-level
          maintenance that were established by the Strom Thurmond National
          Defense Authorization Act for Fiscal Year 1999, Public Law 105-261,
          October 17, 1998, section 346. However, the benefits are now
          questionable. We calculate, using data not always available when the
          BCA was prepared, that the FIRST Program was costing $142.8 million
          more than traditional support for the first 5 years (NAVICP cost increase
          of $153 million and the NAVAIR savings were only $10.2 million).


Business Case Analyses
    NAVAIR Business Case. In June 1999, NAVAIR prepared a BCA outlining the
    benefits that DoD would derive from teaming with industry to obtain total
    logistics support for the F/A-18E/F peculiar aircraft components. The BCA
    projected that the FIRST Program would:

              •   provide a total logistics cost avoidance of $1.4 billion over
                  30 years,

              •   reduce turnaround time from 60 days to 45 days on repairs, and

              •   increase aircraft reliability (flight time between unscheduled
                  removals) by 10 percent.
                                        4
The cost avoidance was based on analysis of seven major cost elements that
compared costs with the FIRST initiative to those costs without the initiative. Of
the seven elements, two elements-supply support and support equipment-
represented about 75 percent of the total cost avoidance. The Navy used the BCA
to justify entering into a 30-year teaming arrangement with Boeing. However,
lacking sufficient program funds for the effort, NAVAIR requested that NAVICP
provide assistance through the Navy Working Capital Fund (NWCF).

NAVICP Assistance. To provide assistance through the NWCF, NAVICP
prepared its own BCA to determine whether award of a contract to Boeing was
cost effective. NAVICP prepared a BCA based on a 5-year period that addressed
costs associated with the supply support element. To facilitate the BCA
preparation, NAVICP established an integrated process team with Navy and
contractor technical experts. The team provided expertise in areas such as
inventory management, contracting, repairs, engineering, and financial
management. The NAVICP BCA showed a $55.4 million cost avoidance to the
NWCF (later adjusted to $52.4 million) and supported entering into a teaming
arrangement for the F/A-18E/F aircraft.

        Congressional Notification. The Strom Thurmond National Defense
Authorization Act for Fiscal Year 1999, Public Law 105-261, October 17, 1998,
section 346, as amended, placed conditions on expansion of functions performed
under prime vendor contracts for depot-level maintenance and repair.
       Conditions on Expanded Use. The Secretary of Defense or the Secretary of a
       military Department, as the case may be, may not enter into a prime vendor
       contract for depot-level maintenance and repair of a weapon system or other
       military equipment described in section 2464 (a) (3) of title 10, United States
       Code, before the end of the 30-day period beginning on the date on which the
       Secretary submits to Congress a report, specific to the proposed contract, that
           (1) describes the competitive procedures to be used to award the prime
       vendor contract;
            (2) contains an analysis of costs and benefits that demonstrates that use of
       the prime vendor contract will result in savings to the Government over the life
       of the contract;
           (3) contains an analysis of the extent to which the contract conforms to the
       requirements of section 2466 of title 10, United States Code; and
           (4) describes the measures taken to ensure that the contract does not violate
       the core logistics policies, requirements, and restrictions set forth in section
       2464 of that title.

On April 3, 2001, the Acting Assistant Secretary of the Navy (Research,
Development, and Acquisition) notified Congress of the Navy’s intent to award
Boeing a contract for total logistics support of the F/A-18E/F aircraft. The
Assistant Secretary stated that the Navy expected the contract would save the
NWCF about $55.4 million (later adjusted to $52.4) over 5 years. In addition, the
Navy also claimed $74 million in cost avoidance relating to other integrated
logistics support elements from the FIRST Program from the NAVAIR BCA for
the same period.

                                          5
           Reported FIRST Program Savings. Prior to contract award, NAVICP
    reduced from $55.4 million to $52.4 million its NWCF cost avoidance relating to
    the FIRST Program. Table 1 summarizes the Navy’s reported 5-year
    $126.1 million cost avoidance relating to the FIRST contract with Boeing.

          Table 1. FIRST Program Savings – Without Versus With FIRST
                                 (in millions)
                                            Without                     Cost Increase/
                 Description                FIRST       With FIRST    (Cost Avoidance)
      NAVICP BCA
       Material costs                   $ 779.0          $ 771.5          $  (7.5)
       Operations cost                    108.1             63.2            (44.9)
        Subtotal NWCF cost              $ 887.1          $ 834.7          $ (52.4)
      NAVAIR BCA
       Non-supply support elements       1,531.2          1,457.5            (73.7)
        Total                           $2,418.3         $2,292.2          $(126.1)

IG DoD-Calculated Performance Costs
    The Navy BCA used to justify award of the FIRST contract overstated the cost of
    DoD performance by $268.9 million [$(126.1) minus $142.8=$268.9]. Our
    analysis of the BCA line item costs did not support the conclusion that the Navy
    would save $126.1 million over a 5-year period if NAVICP awarded the FIRST
    contract to Boeing. We questioned the reliability of the data and the methodology
    used in the BCA. Table 2 summarizes the adjustments made to the Navy’s
    reported 5-year cost avoidance. Our calculations show the FIRST Program
    actually costs the Navy $142.8 million more than the traditional support method.

               Table 2. IG DoD-Corrected FIRST Program Savings
                                 (in millions)
                                    IG Corrected      IG Corrected     Cost Increase/
             Description           Without FIRST      With FIRST     (Cost Avoidance)
    NAVICP BCA
     Material costs                    $ 573.8            $ 783.1           $ 209.3
     Operations cost                     119.5               63.2             (56.3)
      Subtotal NWCF Cost               $ 693.3            $ 846.3          $ 153.0
    NAVAIR BCA
     Non-supply support elements        1,531.2            1,521.0           (10.2)
      Total                            $2,224.5           $2,367.2         $ 142.8




                                        6
    Table 3 shows the specific calculations and adjustments to the cost avoidance the
    Navy claimed.

     Table 3. Summary of Audit Adjustments to Navy-Claimed Cost Avoidance
                                                        Cost Increase/(Cost Avoidance)
   Navy-Claimed Cost Avoidance Related to:
     NAVICP - NWCF                                   $ (52,391,565)
     NAVAIR - Integrated Logistics Support                                 $ (73,670,000)

   Audit-Calculated Additions:
     Consumable and Repairable Item Prices             $148,637,151
     Repair Costs                                        44,207,529
     FY 01-02 Obsolescence/Net Loss                      11,644,746
     NAVAIR - Other Integrated Logistics                                       $ 63,500,000
     Managing Consumable Items                           66,416,831
     Other Audit Adjustments                              4,499,510

   Audit-Calculated Reductions:
     DLA Recovery Rate on Consumables                $ (57,505,251)
     Failure to Apply Inflation to Consumables         (12,533,164)
     Error Correction on Consumables                       (29,497)

      Total NAVICP Audit Adjustments                  $205,337,855

      Total NAVAIR Audit Adjustments                                       $     63,500,000
       Total Cost Increase/(Cost Avoidance)           $152,946,290              ($10,170,000)




Consumable and Repairable Item Prices
    NAVICP used unreliable data to calculate the traditional (without FIRST
    Program) cost for consumable and repairable items. To establish more reliable
    data, we obtained sales histories and actual cost data from the OEMs. To
    establish the in-house BCA unit costs, NAVICP selected the most recent price
    paid for consumable and repairable parts from its contract status file. The
    NAVICP item managers responsible for pricing the parts stated their
    methodology disregarded BCA-projected demand and indicated that when
    historical pricing data were not available, which was often the case, the prices for
    alternate configurations or those developed from engineering calculations were
    used. In addition, NAVICP substituted Boeing’s proposed bill of material price,
    which was based on a supplier price or proposal, for some prices. NAVICP
    added an 8-percent burden to the price when the proposed bill of material price
    was used because NAVICP felt the 8-percent burden made the price more
    reflective of the amount the Navy actually paid under traditional contracting
    methods. Parts pricing for the BCA occurred between October 2000 and
    March 2001.


                                                 7
            Validity of BCA Prices. We evaluated prices for 76 consumable and
            71 repairable parts with a total BCA cost of $345.7 million, representing about
            67 percent of the total BCA in-house procurement cost of goods sold
            ($518.2 million) in our review. Table 4 shows that the in-house BCA prices were
            overstated by $148.6 million or 75.4 percent. Appendix C provides details on the
            parts reviewed, including National Stock Number (NSN), part number, contractor,
            and part description. Tables D-1 and D-2 in Appendix D provide details on our
            analysis of in-house BCA prices for the consumable and repairable parts.

                          Table 4. In-house BCA Price Versus Actual Supplier Price
                                  No.     Total Cost (BCA Demands)         Difference
                                    f
                                 Parts     BCA          Audit Calculated Amount       Percent
              Consumables            76 $157,778,507  $ 76,064,599 $ 81,713,908                                     107.4
              Repairables            71  187,957,981   121,034,737   66,923,243                                      55.3
                                                                 *
                  Total             147 $345,736,488 $197,099,336 $148,637,151                                       75.4
              *
               Includes $29,845,498 reduction related to markup on parts purchased through the Northrop Grumman Corporation.


            The supporting documentation for BCA pricing showed procurement history was
            available for only a limited number of the parts because the E/F aircraft was still
            early in production and only 54 aircraft had been delivered prior to contract
            award. Specifically, limited historical prices were available for only 10 of 76, or
            13.2 percent, of the consumable parts and 37 of 71, or 52.1 percent, of the
            repairable parts reviewed. The lack of historical pricing information had a
            significant impact on the ability of NAVICP to establish a reasonable BCA price.
            For example, the BCA price for 49 of the 76 consumable parts reviewed was
            more than 100 percent higher than the audit-verified price. Historical pricing was
            not available on 46 of the 49 parts. The BCA price for 36 of the 71 repairable
            parts reviewed was more than 50 percent higher than the audit-calculated price.
            Historical pricing was not available on 26 of the 36 parts.

            Best Available Data and Pass-Through Costs. NAVICP did not always use the
            best available data to establish BCA prices and did not effectively evaluate
            pricing data that included pass-through costs. For example, the BCA unit price of
            $142,616 for an electrical control box (NSN 1660-01-454-5712) was based on the
            price NAVAIR paid to Boeing under its low rate initial production (LRIP)
            contract. However, based on negotiations using certified cost or pricing data,
            NAVICP more recently purchased the part from the OEM at a significantly lower
            price of $54,777. Under FIRST, Boeing paid Northrop Grumman 5 for the
            part, which Northrop Grumman purchased from the OEM at an average price of 5
            the true cost of the item.




5
    This area of the report represents contractor proprietary data that has been deleted.

                                                               8
            Table 5 shows the price history for the electrical control box.

                             Table 5. Unit Price History for Electrical Control Box
                                            (NSN 1660-01-454-5712)
                                          OEM          Calculated                      Government
              Order Date       Quantity   Price       Boeing Cost1   BCA Price    Quantity    Price
                                             6
                 8/13/1996         6                   $126,395
                                             6
                 8/13/1996         2                    125,300
                                             6
                 8/13/1996         6                    126,395
                                             6
                  4/7/1997         3                    126,395
                                             6
                 7/30/1997       20                     115,049
                                             6
                 1/19/1998         3                    115,049
                 3/31/1998                                                            3      $142,6162
                                             6
                  9/9/1998       30                     102,723
                 4/29/1999                                                            1        54,777 3
                                             6
               2/3/2000          36                      69,076
              10/26/2000         21          6
                                                         62,750
              10/26/2000         21          6
                                                         67,503
                  2/1/2001                                            $142,616
                                             6
                 3/30/2001         5                     67,503
                                             6
                 11/5/2001         1                     58,864
                                             6
                 11/5/2001       45                      58,864

             1                                                           6
              OEM price plus Northrop Grumman pass-through markup of         .
             2
              Boeing LRIP price to NAVAIR.
             3
              OEM price to NAVICP.

            Northrop Grumman supplied 44, or 29.9 percent, of the 147 parts in our review.
            However, Northrop Grumman was the actual OEM for only three of the parts.
            Northrop Grumman has an agreement with Boeing to provide all E/F-peculiar
            parts used in both the center and aft fuselage of the F/A-18 aircraft and assists
            Boeing with asset and configuration management of the parts. For the parts that it
            does not manufacture, Northrop Grumman buys parts from its suppliers, the
            OEMs, and provides the parts to Boeing at the OEM cost plus a Northrop
            Grumman average markup of 6 (based on actual costs through March 12, 2002).
            The NAVICP BCA never considered procuring the items directly from OEMs,
            including those items that the Navy procured from the OEMs prior to the FIRST
            contract. The oversight caused BCA costs to be overstated.

            In another example, the Navy used a Boeing-provided price of $56,260 to
            establish the BCA price for a fluid pressure regulating valve
            (NSN 4810-01-469-1460). However, the Navy had purchased on February 24,
            2000, the regulating valve from the OEM at a unit price of $20,000. Based on the
            BCA-projected demand of 77 parts, the price difference resulted in BCA costs
            being overstated by about $2.8 million.
6
    This area of the report represents contractor proprietary data that has been deleted.

                                                         9
            Table 6 shows the price history for the fluid pressure regulating valve.

                   Table 6. Unit Price History for the Fluid Pressure Regulating Valve
                                        (NSN 4810-01-469-1460)
                                           OEM            Calculated                               Government
              Order Date     Quantity      Price         Boeing Cost1         BCA Price        Quantity   Price
                                                 7
                 7/30/1997     17                         $25,658
                                                 7
                 7/30/1997       6                          25,658
                                                 7
                  9/9/1998     60                           22,970
                                                 7
                  2/3/2000     72                           31,602
               2/24/2000                                                                         12      $20,0002
              10/26/2000       92                7
                                                            32,181
                  2/1/2001                                                      $56,260
                                                 7
                 3/30/2001     15                           31,631
                                                 7
                 11/5/2001       6                          32,497
                                                 7
                 11/5/2001     90                           32,497

             1                                                7
              OEM price plus Northrop Grumman markup of           .
             2
              OEM price to NAVICP.

            In another example, NAVICP used a BCA price of $17,536 each for an antenna
            (NSN 5985-01-455-2550) that was based on the price the Navy paid to Boeing
            under its LRIP contract. However, the price for the items from the OEM was 7 .
            Consequently, the BCA price was 7 higher than the OEM price. Table 7
            shows the price history for the antenna.

                    Table 7. Unit Price History for Antenna (NSN 5985-01-455-2550)
                                          OEM         Calculated                               Government
              Order Date     Quantity     Price      Boeing Cost1         BCA Price       Quantity      Price

              11/21/1997       24            7
                                                        $4,384
                 3/31/1998                                                                10              $17,5362
                                             7
                 7/17/1998     10                        3,911
                                             7
                 7/17/1998     40                        3,911
                                             7
                 9/23/1999     60                        3,358
                                             7
                 6/30/2000     72                        3,331
                  2/1/2001                                                 $17,536
                                             7
                 4/18/2001    111                        3,245

             1                                                7
              OEM price plus Northrop Grumman markup of               .
             2
              Boeing LRIP price to NAVAIR.




7
    This area of the report represents contractor proprietary data that has been deleted.

                                                         10
    The Navy needs to develop a methodology for calculating consumable and
    repairable item costs used in its BCA that considers the reliability of the data used
    for determining prices. Special consideration should be given to items with little
    or no procurement history, whether the item was procured directly from the OEM,
    economic order quantities, and high cost items.


Repair Costs
    The Navy used an outdated matrix for calculating repair costs versus historical
    data for similar items available at the naval depots. The matrix, which NAVICP
    developed in 1986, was based on a study of actual repair costs on parts across all
    weapon systems that had procurements in the previous 2 years. The study
    compared the average repair cost of each part to its replacement (acquisition) cost
    and established percentages within certain replacement cost dollar thresholds that
    were used to calculate repair cost. NAVICP calculated the repair cost for each
    repairable item under the FIRST Program by applying the appropriate percentage,
    shown in Table 8, to the item’s replacement cost. For example, if the acquisition
    cost for an item was $3,000, the repair cost would be $900 ($3,000 multiplied by
    .3 = $900).

                          Table 8. Repair Cost Matrix
                         Dollar Threshold          Percent
                            1 - 999                  48
                         1,000 - 2,999               32
                         3,000 - 9,999               30
                        10,000 - 24,999              24
                        25,000 - 49,999              20
                           50,000 +                  15

    NAVICP stated that the matrix was updated in 1995 and that a number of parts
    was reviewed annually; however, we were unable to obtain any documentation to
    support the original study, the 1995 update, or any subsequent reviews.

    Actual Repair Costs. We reviewed repair costs for 20 of 45 parts that either the
    OEM or depot repaired as of April 30, 2002. The total repair cost used in the
    BCA for the 20 parts was $65.6 million and for the 45 parts was $102.3 million.
    See Table D-3 in Appendix D for details on our analysis of BCA repair costs.
    The BCA repair costs were overstated because the matrix percentages were not
    accurate and the item acquisition costs were overstated. Our analysis of the
    20 parts showed that BCA repair costs were overstated by $44.2 million, or
    206.7 percent. We calculated that 117 percent of the difference was the result of
    inaccuracies in the matrix and 89.7 percent was the result of overstating the
    acquisition cost.

    Historical Data From Depots. To calculate labor costs for parts the depot was
    expected to repair under the FIRST Program, Boeing obtained historical labor
    cost information for comparable F/A-18 C/D aircraft parts from the naval depot at

                                            11
    North Island. North Island identified comparable F/A-18 C/D aircraft parts and
    used historical labor costs for repairs to support its proposal to Boeing. Historical
    data were also available for material costs. We used the negotiated labor costs
    between North Island and Boeing (based on historical labor costs) and historical
    material costs to calculate repair costs for 8 of the 45 repairable parts in our
    review at North Island. North Island will perform the majority of the repair work
    under the FIRST Program. Our analysis showed that BCA repair costs were
    112.9 percent higher than the repair costs calculated using data from North Island.

    To validate the accuracy of its repair cost matrix, the Navy could have either used
    support from its depots to help develop the BCA repair costs for the
    C/D comparable parts or performed a study of repair parts on the F/A-18C/D
    aircraft using more current data. We believe the use of a generic repair cost
    matrix based on data from repair costs of components of various ages is
    questionable for new systems. The Navy should develop a methodology for
    calculating costs to repair repairable items used in its BCA that considers the
    reliability of the data used to determine prices. Special consideration should be
    given to items with little or no repair history and high cost items. In addition, the
    Navy should ensure that details of such studies and any subsequent updates are
    maintained as an audit trail, along with documentation of corresponding oversight
    performed.


Obsolescence and Net Loss
    The BCA incorrectly claimed an $11.6 million cost avoidance for the costs
    associated with obsolescence and net loss on items procured during the 2-year
    base period of the FIRST contract. NAVICP recovers obsolescence, net loss, and
    other indirect costs by applying cost recovery rates to the NAVICP item
    acquisition cost. NAVICP used the FY 2001 Naval Supply Systems Command-
    calculated rates for quantifying the Government’s cost to replace the FIRST
    Program items that would become obsolete or lost in inventory. Table 9 shows
    the amounts that the BCA determined the Government would expend for
    obsolescence and net loss over the life of the contract.


          Table 9. Recovery Amounts for Obsolescence and Net Loss
                     Obsolescence              Net Loss                Total
     Year 1           $7,133,176               $281,112              $7,414,288
     Year 2            3,260,651                 969,807              4,230,458
     Year 3            4,073,619               1,197,781              5,271,400
     Year 4            4,157,760               1,190,425              5,348,185
     Year 5            4,750,597               1,317,335              6,067,932
      Total          $23,375,803              $4,956,460            $28,332,263


    NAVICP did not assign any costs for obsolescence or net loss to the
    “With-FIRST” portion of its BCA because under the performance-based logistics
    concept Boeing assumed responsibility for managing obsolescence and net loss as

                                         12
    a part of providing total logistics support for the F/A-18E/F aircraft. However,
    the FIRST contract is a cost-plus-incentive-fee contract during the 2-year base
    period where the Navy procures the consumable and repairable items based on the
    BCA-determined demands from Boeing. The items are then stored at Boeing’s
    commercial warehousing facility until issued to one of the Navy’s operational,
    intermediate, or depot sites. Consequently, because the Navy owns the parts, the
    Navy will incur the cost of replacing any items that become obsolete or lost while
    in inventory. Using the Naval Supply Systems Command-calculated rates, the
    BCA showed that the Navy would not incur $7.4 million in year 1 and $4.2
    million in year 2 of the contract for those costs if the FIRST Program were
    implemented. We have questioned only the costs associated with obsolescence
    and net loss on items procured during the 2-year base period of the contract as
    incorrect; however, if the Navy does not correct the situation for the option years
    of the contract, then the entire 5 years of the claimed cost savings of $28.3 million
    is questionable.


NAVAIR Integrated Logistics Support Elements
    Cost Avoidance Claimed. The Navy claimed a $74 million cost avoidance
    relating to integrated logistics support element costs that were not fully supported
    or justified. The cost avoidance related to six of the seven cost elements that
    made up the original NAVAIR BCA. The seventh cost element, supply support,
    was addressed in the NAVICP BCA. Table 10 summarizes the other integrated
    logistics support costs the Navy claimed would be avoided by cost element during
    the 5-year period.


                          Table 10. Summary of Cost Avoidance
                                       (in millions)

                      Cost Element                               Cost Avoidance
              Engineering                                              $ (4.76)
              Integrated Logistics Support                                6.01
              Information Systems                                       (11.08)
              Support Equipment                                          78.86*
              Technical Publications                                      4.64
              Training                                                    0.00
                  Total                                                $ 73.67
              *
               Supporting documentation showed $78.82 million.


    Support Equipment. Support equipment represented the majority of the Navy’s
    claimed cost avoidance related to integrated logistics support. Table 11 shows
    support equipment cost avoidance primarily related to hardware acquisition that
    consisted of four cost areas. We reviewed the methodology and supporting
    documentation for quantity discounts, major structural repairs, and tailored
    intermediate-level repairs and concluded that $63.5 million, the entire amount
    claimed for the three cost areas, was either invalid or questionable.

                                                  13
              Table 11. Summary of Support Equipment
                           (in millions)

                    Cost Description               Cost Avoidance
       Labor                                         $ 2.08
       Hardware Acquisition
         Quantity Discounts                            38.30
         Major Structural Repairs                      22.00
         Tailored Intermediate-Level
       Repairs                                          3.20
         No Shop Replacement Assembly
       Support                                         0.15
       Maintenance                                    13.09
          Total                                      $78.82

         Quantity Discounts. The NAVAIR BCA concluded that quantity
discounts of $38.3 million would be realized during FY 2001 through FY 2005 if
an initial investment of $37.1 million was made in FY 2000 for required
quantities of high dollar support equipment. The concept behind the discount
related to the learning curve associated with manufacturing increased quantities.
However, the quantity discounts initiative was never implemented, so no cost
avoidance occurred. Also, the claimed cost avoidance never accounted for the
initial $37.1 million investment.

        Major Structural Repairs. The NAVAIR BCA concluded that a
reduction in major structural repair equipment would result in a cost avoidance of
$22 million during FY 2001 through FY 2005. To determine the cost avoidance,
Navy and Boeing personnel reviewed the makeup of the support equipment bag
(mix of various equipment) developed for repairs at the depot level for
F/A-18 C/D aircraft. Based on experience with the F/A-18 C/D aircraft,
technological advances, and discussions between Navy and contractor personnel,
a decision to eliminate some of the larger equipment from the bag was made. The
Navy analysis focused on the higher dollar alignment sets and fixtures. As a
result of the analysis, the Navy claimed $22 million cost avoidance for the 5-year
period by eliminating a portion of alignment sets and fixtures.

As an example of cost avoidance, the Navy determined that the repair capability
for landing gear and canopy fixtures could be combined or dropped as a result of
low usage on the existing F/A-18A/D aircraft program. In addition, Laser
Alignment Systems are taking over the traditional design Mechanical Alignment
Fixtures, resulting in fewer fixtures and tools having greater capability. However,
NAVAIR could not distinguish reductions based on F/A-18 C/D experience and
technological advances (not related to FIRST) from reductions that were a direct
result of the Navy and contractor partnering relationship under FIRST.
Therefore, while we agree with the Navy assessment that a cost avoidance was
realized, we question how much, if any, can be attributed to the FIRST Program.



                                       14
            Tailored Intermediate-Level Repairs. The NAVAIR BCA attributed
    $3.2 million of the 5-year cost avoidance to the tailoring of intermediate-level
    repairs. This conclusion was based on the assumption that hardware acquisition
    at each repair site could be tailored to the needs of each aircraft. A site with more
    aircraft would therefore require more support equipment hardware acquisition.
    The tailoring decisions were based, in part, on the Navy’s experience with the
    C/D aircraft. However, NAVAIR personnel responsible for cost analysis stated
    that without FIRST, the Navy would not have tailored the intermediate-level sites
    because each site would be funded equally. We believe that tailoring
    intermediate-level repairs to the needs per aircraft makes sense and the decision
    on whether to support the E/F aircraft using FIRST should not affect the Navy’s
    use of experience on existing aircraft to make fiscally sound decisions.


Managing Consumable Items
    To calculate the BCA cost of managing consumable parts without the FIRST
    Program, NAVICP used nontraditional methodology. DoD Manual 4140.26M,
    “Defense Integrated Materiel Management Manual for Consumable Items,” May
    1997, designates the Defense Logistics Agency as the integrated materiel manager
    for consumable items. Without the FIRST Program, the Defense Logistics
    Agency would have been responsible for managing the support of F/A-18E/F
    consumable parts and would have recovered in its recovery rate any associated
    costs for doing so. The cost recovery rate for the Defense Supply Center
    Richmond, the supply center that manages the majority of the F/A-18 aircraft
    parts, was 29.0 percent during 2002. The cost recovery rate includes costs for
    material issue and receipt, obsolescence, net loss, storage, and transportation.
    However, the Navy received a waiver from the Assistant Deputy Under Secretary
    of Defense for Supply Chain Integration, which allowed it to manage consumable
    parts under the FIRST contract.

    The BCA methodology calculated issue and receipt costs by applying a composite
    rate to each transaction, defining a transaction as the demand for one unit using a
    baseline year cost of $24.36 per issue or receipt. The definition assumes that the
    Navy user would not order more than one item at a time, an assumption that
    increased the associated Defense Logistics Agency costs as well as the BCA-
    claimed cost avoidance. The BCA included costs of $20.4 million for material
    loss and obsolescence and $46 million for operations (includes issue and receipt,
    storage, and transportation), for a total of $66.4 million. We calculated a cost of
    $57.5 million for the Defense Logistics Agency to manage the consumables by
    applying the Defense Logistics Agency 2002 cost recovery rate of 29.0 percent to
    the revised cost of consumables. The Navy’s methodology caused an
    overstatement of $8.9 million in the Defense Logistics Agency cost of managing
    consumable parts.




                                         15
Other Audit Adjustments
    We made additional adjustments to the BCA-claimed cost avoidance.
    Specifically, we reduced material maintenance costs on repairable parts by
    $4.6 million to reflect the audit-calculated reduction of spare and repair costs. In
    the BCA, such costs for obsolescence, net loss, and carcass loss were computed as
    a percentage of material cost. In addition, we added $12.5 million for the cost of
    inflation on consumable parts omitted from the BCA and $29,497 to correct a
    computation error.


Summary
    The Navy did not have reliable data for preparing the BCA used in support of its
    decision to award the FIRST contract. Consequently, unreliable data were used to
    demonstrate that the use of the prime vendor contract for depot-level maintenance
    support resulted in savings to the Government, as Public Law 105-261,
    section 346 requires. Our calculations show the FIRST Program will cost the
    Navy an additional $142.8 million for the first 5 years of contract performance.
    Consequently, NAVICP needs to prepare a new business case for determining
    whether exercising future contract options are warranted and whether the FIRST
    Program provides the best value for the Navy and should continue.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are
    found in Appendix F.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Commander, Naval Supply Systems Command
    develop a methodology and issue guidance for preparing business case
    analyses that consider the reliability of the data used to determine:

           a. Consumable and repairable item prices with little or no
    procurement history, whether the item was procured directly from the
    original equipment manufacturer, economic order quantities, and high cost
    items.

           b. Repair of repairable item prices with little or no repair history and
    high cost items.




                                        16
Navy Comments. The Navy partially concurred, stating it actively used the
existing decision tree methodology to determine the prices for consumable and
repairable items under traditional Government support. The Navy also
commented that the Repair Cost Matrix was an acceptable tool for determining
repair prices.

Audit Response. The Navy comments are not responsive. The Navy’s decision
tree methodology used to determine prices for consumable and repairable items is
unacceptable because it does not use and validate the actual OEM prices but relies
on the contractor to establish the prices. In addition, the Repair Cost Matrix is
only a tool for estimating the repair prices of new items and is not as accurate as
other tools, such as actual repair costs for the same or similar items that should be
used to validate the data. We request that the Navy reconsider its position on the
recommendations and provide comments on the final report.

A.2. We recommend that the Commander, Naval Inventory Control Point,
Philadelphia prepare a new business case that determines whether exercising
future contract options is warranted and whether the FIRST Program
provides the best value for the Navy and should continue.

Navy Comments. The Navy did not concur, stating that the BCA used for
justifying the contract award was fully supported for the base period. The Navy
further stated that although the BCA would be updated to reflect revisions for
“with PBL” costs, in the absence of additional information to determine “without
PBL” costs, a refreshed BCA should reach the same conclusion as the original
cost projection.

Audit Response. The Navy comments are not responsive. The Navy BCA for
the without performance-based logistics costs used unreliable data, failed to use
actual OEM prices for consumable and repairable items, used an outdated matrix
to calculate repair costs, and used inappropriate cost avoidances and savings.
Fortunately, actual cost data are available for consumable and repairable items
(OEM prices) and repair costs for the Navy to refresh its without
performance-based logistics portion of the business case to validate or not the
Navy’s original cost calculations and decision to award the FIRST contract. We
request that the Navy reconsider its position on the recommendations and provide
comments on the final report.




                                     17
           B. Performance-Based Logistics Support
              Contract for the F/A-18E/F Aircraft
           The Navy FIRST contract does not effectively implement the material
           management and reliability improvements described in the acquisition
           plan for the FIRST performance-based concept. Specifically, the FIRST
           contract failed to require Boeing, in conjunction with NAVICP, to:

               •   reduce repair cycle times and achieve a minimum 10-percent
                   reliability improvement from baseline calculations,

               •   reduce and effectively monitor infrastructure support costs that
                   included Navy inventory investment,
               •   procure items directly from the OEMs that reduced pass-through
                   costs, and

               •   accurately charge fleet customers.

           As a result, the 13-percent life-cycle cost reductions proposed in the
           acquisition plan appear questionable. We calculate that the NWCF
           portion of the FIRST Program infrastructure support costs was running
           about 77 percent (minimum) of spare part or repair cost versus the
           intended 34 percent. The Navy also funded about $54 million of
           inventory stored in the Boeing commercial warehouse, significantly
           reducing the performance burden; pass-through costs increased program
           costs by $5.1 million for applicable items; and Navy customers were
           overcharged $12.1 million by the NWCF for 114 parts issued to the fleet.


FIRST Acquisition Plan
    In the Statement of Need section of its acquisition plan for the FIRST Program,
    NAVICP outlines shortcomings with the Navy’s current method of aircraft
    support and identified why the alternative support approach envisioned under the
    FIRST Program was needed. Specifically, the section states:

           The current process of aircraft support is costly and unaffordable in
           today’s funding environment. Dollars traditionally associated with
           support must be made available to address modernization efforts. The
           F/A-18 budget for logistics does not allow for execution to requirement
           at the current funding levels. The budget requirement was developed
           using the current organic process. This process affords relatively
           minor contractor participation and little Government-Industry teaming.
           This alternative support concept is required to streamline current
           processes and eliminate redundancies.

    The Navy concluded that entering into a Government-Industry Partnership with
    Boeing serving as the single focus for contractual accountability and management
                                             18
responsibility was needed to address the shortcomings with the current support
process. Under the new process, Boeing would be responsible for supply support,
engineering, and integrated logistics support of the F/A-18E/F along with
continuous product improvement and modernization. Boeing would use the naval
depots as the major providers of depot maintenance support services,
supplemented by the OEMs when necessary. The acquisition plan also states that
it was “the Navy’s objective under this program for Boeing to retain ownership of
wholesale inventories.” The Capability or Performance section of the acquisition
plan identifies improvements that were needed if the savings objective was to be
realized. Specifically, the section states:

       In order to meet the desired objectives of FIRST and attain the
       estimated 13% LCC [life-cycle cost] reduction, the Government-
       Industry team must be able to reduce repair cycle time of failed
       components and achieve a minimum 10% reliability improvement from
       the baseline estimates. The repair cycle reduction will be facilitated by
       use of expedited transportation of material and guaranteed delivery of
       spare parts to support repair at the designated repair point. The
       minimum 10% reliability target will be achieved by analysis of parts
       usage, failure data and failure modes. This analysis will enable
       engineering changes to be effected for unreliable components as well
       as items facing material obsolescence.

Boeing would be provided financial incentives to be innovative and efficient and
to reduce the total life-cycle cost of the F/A-18E/F aircraft. The Contractor
Versus Government Performance section of the acquisition plan identifies the
performance improvements that would be made under the FIRST Program.
Specifically, the section states:

       FIRST makes use of best business practices through the teaming
       concept. Contracting with Boeing for total logistics support using a
       teaming approach is preferred in comparison to a traditionally organic
       process. FIRST will:

           •    contractually guarantee a 10% reliability improvement,
           •    avoid historical duplication of DoD/industry logistics effort,
           •    introduce a fee based efficiency and reliability incentive,

           •    lead to an estimated 13% cost reduction over the 30 years life
                cycle of the program,

           •    reduce Government inventory investment, and
           •    comply with the organic repair capability provisions of Title
                10 U.S.C. [United States Code] sections 2460, 2464, and
                2469.




                                          19
Repair Cycle Times and Reliability Improvements
    The Navy FIRST contract failed to require that Boeing reduce repair cycle times
    and achieve a minimum 10-percent reliability improvement from baseline
    calculations. NAVICP states in the acquisition plan that the higher prices
    expected to be paid for spares because of direct Boeing supply would be offset by
    the other FIRST Program cost benefits. NAVICP also states in the plan that
    90 percent of the estimated savings were directly linked to the improvement in
    parts reliability and, as such, would be built into the process and guaranteed under
    the terms of the contract. Repair cycle time for failed components also needed to
    be reduced over the baseline estimates in order for the estimated 13-percent cost
    reduction to be realized.

    Repair Cycle Times. The FIRST contract did not require that Boeing reduce
    repair cycle time for failed components. NAVAIR concluded F/A-18E/F support
    costs could be reduced if repair cycle times could be reduced from 60 to 45 days.
    However, NAVICP failed to establish a contract metric to address the reduction
    in the repair cycle time. NAVICP stated having a metric that motivated
    reductions in failed component repair cycle time was not needed because Boeing
    was required to supply material when needed. However, reducing repair cycle
    times from 60 to 45 days, or 25 percent, also reduces the assets needed to support
    the supply pipeline, or additional assets needed until repairs are complete.
    Consequently, NAVICP cannot reduce the pipeline assets (cost savings) without
    reducing the repair cycle time.

    Reliability Improvements. The FIRST contract did not require that Boeing
    improve parts reliability by a minimum of 10 percent over baseline calculations.
    Supportability, the award fee metric NAVICP used to motivate Boeing to
    improve parts reliability, does not hold Boeing accountable for lowering parts
    failure rates by the minimum 10 percent needed to achieve the majority of the
    13-percent cost reduction. The Navy did not use the data that its initial BCA
    expectations were based on to establish baselines that Boeing’s performance
    could be measured against. Instead, the supportability metric measures Boeing’s
    ability to identify, assess, and address trends in the performance of only a subset
    of fielded components when designated reliability threshold triggers are not met.
    Further, the Navy did not save the initial data for the reliability improvement
    metric, and the program, as designed, did not capture sufficient data that could
    document that Boeing support will improve reliability by 10 percent.

    To achieve the savings addressed in its acquisition plan, the Navy needs to
    establish repair cycle time and reliability improvement metrics in the FIRST
    contract.


Infrastructure Support Costs and Inventory Investment
    The FIRST Program has neither reduced nor effectively monitored infrastructure
    support costs, including the Navy’s investment in inventory. NAVICP states, in
    its acquisition plan, that the FIRST Program would “avoid the historical
    duplication of DoD/industry logistics effort.” The acquisition plan also states that
                                         20
            a NAVICP objective for Boeing is to retain ownership of wholesale inventories.
            However, the logistical infrastructure used to support the F/A-18E/F aircraft
            actually increased after program implementation and the type of contract vehicle
            the Navy chose for implementing the program prevented Boeing inventory
            ownership.

            Reducing and Monitoring Support Costs. We calculated that the NWCF
            portion of FIRST Program infrastructure support costs were running about
            77 percent (minimum) of spare part or repair costs. NAVICP proposed charging
            fleet customers 34 percent more than the cost of material or repairs to recover the
            NWCF portion of the Boeing support costs.8 The proposed burden rate was
            comprised of 18.82 percent for the cost of Boeing’s support, 4.57 percent for
            transportation costs, and 8 percent for the NAVICP cost recovery rate.

            NAVICP has been able to offset most of the difference between the amount being
            recouped for Boeing support costs (18.82 percent) and the actual NWCF Boeing
            support costs (57.2 percent) because the burden rate was applied to the overstated
            part prices the Navy used in its BCA. Further, the way NAVICP structured the
            FIRST contract made calculating infrastructure support costs extremely difficult.
            For example, the cost of labor Boeing expended to manage the supply chain was
            billed as a direct cost rather than an indirect infrastructure support cost.

            In addition, the 77-percent (minimum) infrastructure support cost recovery rate
            that we calculated for the FIRST Program is understated because the rate was
            based on total inventory costs. Traditionally, infrastructure cost recovery rates
            are applied to material issued to customers, not to total inventory costs. Thus, if
            only half of the parts purchased during our review were issued to customers, the
            burden rate for the NWCF would double. Table 12 shows our calculation of
            FIRST contract infrastructure support costs through March 25, 2002.




8
    The costs associated with in-service and information systems efforts, program management, and the
     support of spare parts prior to the material support dates are funded from NAVAIR appropriated funds.

                                                      21
                Table 12. Total FIRST Contract Costs and Boeing Support Rates
                                                  NAVAIR (APN1 1) NAVAIR (APN1 6)               NAVICP (NWCF)                   Overall
                  Description                          Cost    Percent     Cost       Percent      Cost       Percent      Cost       Percent
                                                                         $3,396,04
     OEM Material Cost                            $ 367,767                       7             $40,427,892             $44,191,706


     Boeing Support Cost
                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9

                         9                              9                   9                       9                       9




                         9                              9                   9                       9                       9




                         9

                         9                              9         9         9            9          9            9          9              9

                         9                              9         9         9            9          9            9          9              9

                       2 9                              9         9         9            9          9            9          9              9

                         9                              9         9         9            9          9            9          9              9




                         9                              9                   9                       9            9          9              9




                         9                              9                   9                       9                       9




      NAVICP - Transportation Charge                                                                            4.63                      4.63
      NAVICP - Cost Recovery Rate                                                                               8.0                        8.0


Burden Rate – Consumable (1.572 x (.0457 + .08 + 1) = 1.7696 – 1 = 76.96)                                      77.0                       92.0
Burden Rate – Repairable ((1.572 x 1.0457) x 1.08 = 1.7753 – 1 = 77.53)                                        77.5                       92.7

1
  APN is defined as Aircraft Procurement, Navy.
2
  [This calculation assumes the award fee is proportionately paid from the different funding sources.]
3
  Figure rounded.



            Consequently, the FIRST Program has not reduced infrastructure support costs.
            In fact, the Navy has actually expanded the logistical infrastructure that supports
            the F/A-18E/F aircraft under the program. For example, the Navy increased the
            number of organizations supporting the F/A-18E/F aircraft operating out of the
            Naval Air Station, Lemoore, California (Lemoore). Boeing supports the aircraft’s

9
    This area of the report represents contractor proprietary data that has been deleted.

                                                                  22
            E/F-peculiar parts, while the Defense Logistics Agency as well as the Lemoore
            Aviation Support Group (the traditional DoD supply system) support the aircraft’s
            common consumable and repairable components.

            NAVICP needs to develop procedures that effectively track infrastructure support
            costs as a percentage of the actual cost of material issued to fleet customers for
            determining whether the FIRST Program can actually be performed for the
            intended 34 percent.

            Navy Inventory Investment. The FIRST contract has not reduced inventory
            investment. We calculate that the Navy has funded about $54 million of
            inventory stored in the Boeing commercial warehouse, significantly reducing the
            performance burden on Boeing. Under the FIRST Program, Boeing purchases
            parts that support the program and submits bills to NAVICP as parts are delivered
            to the Boeing commercial warehouse in Torrance, California. Once the parts are
            issued, NAVICP is reimbursed for the parts from fleet customers. The Navy also
            pays Boeing about $4.0 million annually10 to store the parts prior to their
            shipment to the fleet customers. That support approach requires that the Navy
            invest significant funds in inventory to meet customer demand, limits flexibility
            for meeting other requirements, and reduces the burden on Boeing for making
            decisions on inventory investment stock levels.

            We had difficulty calculating the actual Boeing cost of the Navy inventory
            because neither NAVICP nor the Boeing-managed inventory system tracked the
            actual costs of the inventory. NAVICP only tracked the quantity of parts stored
            in inventory, and Boeing’s system used only standard prices that were based on
            the previously described overstated Navy BCA prices. Further, Boeing was
            unable to provide the actual cost of Navy inventory stored in its commercial
            warehouse. Consequently, we needed to obtain actual cost data from the Boeing
            contracts group for the majority of the FIRST Program items and reconcile the
            data with the Boeing inventory system data. The process was burdensome and
            time consuming. Based on the results, we calculated that at the time of our
            review the Navy had somewhere in excess of $54 million of inventory in the
            Boeing commercial warehouse.

            NAVICP needs to require that Boeing effectively track the cost of Navy inventory
            in the Boeing commercial warehouse and leverage proven commercial support
            concepts, shift responsibility to Boeing for maintaining inventory, and eliminate
            the Navy-owned inventory that has accumulated to support the FIRST Program.


Pass-Through Costs
            The FIRST Program did not require that Boeing procure items directly from the
            OEMs. Northrop Grumman designed and manufactured the center and aft
            fuselage of the F/A-18 aircraft, and provides all parts used in that portion of the

10
     Rent charge was based on the cost associated with forecasted repairable and consumable transactions
     through FY 2002. In addition to rent, the monthly charge includes the costs incurred for the warehouse
     personnel, the associated general and administrative expenses, and other miscellaneous charges.

                                                      23
            aircraft. Northrop Grumman also assists Boeing with asset and configuration
            management of the parts under its agreement with Boeing for the FIRST Program.
            In return, Boeing offers Northrop Grumman an opportunity to earn incentive and
            award fees similar to those the Navy offers Boeing. However, Northrop
            Grumman manufactured only 3 of the 44 Northrop Grumman parts reviewed and
            purchased the remaining 41 parts from the OEMs. Northrop Grumman added a
            markup of about 11 . As of March 2002, Northrop Grumman added about
            $5.1 million to the OEM price for parts that passed through Northrop Grumman.
            NAVICP needs to require that Boeing purchase parts directly from the OEMs to
            eliminate pass-through costs.


Fleet Customer Charges
            NAVICP did not accurately charge its customers for the cost of procuring and
            repairing spare parts because customer prices were based on the inaccurate BCA
            prices and not actual costs. We calculated that fleet customers were overcharged
            more than $12.1 million by the NWCF for the 114 BCA items reviewed that had
            purchase and repair demand through August 14, 2002. Table 13 shows the
            overcharges to fleet customers.

                                        Table 13. Fleet Customer Overcharges*
                                                                     Charges                    Overcharges
               Part Type                       Parts         NAVICP        Corrected         Amount      Percent
            Consumables                         50          $ 3,988,600      $ 1,662,885    $ 2,325,715     139.9
            New Repairables                     51           27,540,880       19,842,018      7,698,862      38.8
            Repaired Repairables                13            4,984,061        2,883,613      2,100,448      72.8
                      Total                    114          $36,513,541    $24,388,516     $12,125,025       49.8
            *
             See Appendix E for the detailed comparisons.

            For example, Lemoore was charged $23,39912 on average for each antenna 11
            purchased. However, NAVICP paid Boeing only $3,285 each for the antennas.
            After removing the Northrop Grumman markup and applying the FIRST
            Program’s burden rate of 11 to recover support costs, Lemoore should have
            been charged only $2,442 to purchase each antenna. As a result, Lemoore was
            overcharged by $20,957, or 858.2 percent, for each antenna purchased. Through
            August 14, 2002, Lemoore was overcharged $502,968 by the NWCF for the 24
            antennas purchased.

            In another example, Lemoore was charged $21,9715 on average for each repair of
            trailing edge flap servo cylinders 11 . However, NAVICP paid only $4,67213 to
            repair each servo cylinder. Thus, after applying the FIRST Program’s burden rate

11
     This area of the report represents contractor proprietary data that has been deleted.
12
     The amount of NAVICP charges in these examples differs from Appendix E because only Lemoore
     demand was used, not demand from the total population.
13
     Based on 26 repairs.

                                                                24
            of 14 to recover support costs, Lemoore should have been charged only $6,269
            to repair each servo cylinder. As a result, Lemoore was overcharged by $15,702,
            or 250.5 percent, for repair of each servo cylinder. Through August 14, 2002,
            Lemoore was overcharged $345,430 by the NWCF for the 22 servo cylinders it
            had repaired.

            Reviewing Customer Charges. NAVICP had not reviewed the actual prices
            paid for individual parts and repairs under the FIRST contract. Focused solely on
            ensuring that Boeing achieved the contract target cost goal of $218.7 million,
            NAVICP contracting personnel performed limited reviews of summarized cost
            data that were provided to support the contract’s total cost. NAVICP concluded
            that detailed reviews of contract invoices were unnecessary because the Defense
            Contract Audit Agency had approved the Boeing cost accounting system. As a
            result, NAVICP failed to detect that it was overcharging its customers.

            NAVICP should have used either prices based on actual costs or the prices the
            Navy and Boeing agreed on in March 2001 to establish the contract’s target cost.
            Had the Navy used the contract’s target cost prices, the fleet would have been
            charged, on average, only 7.3 percent more than the actual cost of the parts and
            repairs for 62 of 115 parts.15 For example, NAVICP established the fleet’s price
            for each hydraulic transmission 14 using its BCA calculated cost of $191,750.
            However, in March 2001, the Navy agreed to pay $79,001 for each transmission,
            a difference of $112,749. Had NAVICP used the finalized price to establish the
            customer charges, the price used to derive the customer charges for the
            transmission would have been within 1 percent of the part’s actual cost ($79,756).
            Through August 14, 2002, NAVICP customers purchased 11 hydraulic
            transmissions and were overcharged more than $1.2 million since contract
            inception (before applying cost recovery rates). Had the final negotiated prices
            been used to price individual parts, NAVICP customers clearly would have been
            charged more reasonable and accurate prices.

            Correcting Customer Charges. NAVICP contracting personnel stated alpha
            pricing would be used to correct the pricing inaccuracies in the option years. In
            alpha pricing, a team of Government pricing personnel consisting of NAVICP
            contracting officers, price analysts, and representatives of the Defense Contract
            Audit Agency and the Defense Contract Management Agency meet with Boeing
            staff to negotiate prices based on the cost data contained in the Boeing cost
            accounting system. We agree that alpha pricing is a valuable tool in determining
            actual costs and should also help NAVICP in preparing its new BCA. NAVICP
            needs to take appropriate action to charge customers prices based on actual costs.




14
     This area of the report represents contractor proprietary data that has been deleted.
15
     Because of missing data, 53 parts were dropped from our analysis.

                                                         25
Conclusion
    The concept for FIRST was envisioned as an improved way of providing total
    logistics support through a teaming arrangement between industry and DoD to
    reduce total ownership costs. Boeing was supposed to outperform traditional
    DoD support. The Navy claimed total program logistics savings of $126.1
    million over a 5-year period for the FIRST Program. However, the benefits the
    Navy expected to result from the FIRST Program identified in the acquisition
    plan have failed to materialize as part of the contract. Consequently, we question
    how the Navy will achieve the intended benefits.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are
    found in Appendix F.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Commander, Naval Inventory Control Point,
    Philadelphia:

           1. Establish repair cycle time and reliability improvement metrics in
    the F/A-18E/F Integrated Readiness Support Teaming contract that achieve
    the savings addressed in its acquisition plan.

    Navy Comments. The Navy did not concur, stating it chose not to measure
    repair turnaround time as a separate metric because it believed customer wait time
    and fill rates are the relevant metrics in a performance-based agreement. The
    Navy also stated that the 10-percent reliability growth was anticipated over the
    life-cycle of the program, not in a 2-year initial performance period. Further the
    Navy stated, “Moreover, the lack of an objective metric in no way invalidates the
    reliability improvements needed to assure program lifecycle goals are achieved.”

    Audit Response. The Navy comments are not responsive and contradict the
    acquisition plan. The acquisition plan states, “Even though spares prices are
    expected to be higher because of direct Boeing supply, these increases will be
    offset by the other cost benefits of FIRST.” The acquisition plan identifies the
    other benefits of the FIRST Program and states that for the FIRST Program to
    meet the life-cycle cost reductions, the program “must be able to reduce repair
    cycle time of failed components and achieve a minimum 10 percent reliability
    improvement from the baseline estimates.” We fail to see how the Navy can
    effectively measure reliability improvements without establishing a baseline and
    holding the contractor accountable for improvement unless it is a contractual
    requirement. We request that the Navy reconsider its position on the
    recommendation and provide comments on the final report.

                                        26
        2. Develop procedures that effectively track infrastructure support
costs as a percentage of the actual cost of material issued to fleet customers
and determine whether the F/A-18E/F Integrated Readiness Support
Teaming Program can actually be performed for the 34 percent envisioned
for the program.

Navy Comments. The Navy did not concur, stating that the audit misinterpreted
the Navy burdening and the cost recovery rates applied to FIRST Program items.
The Navy further stated that some elements that must be covered remain direct
Navy costs and are reflected in the 34 percent while other elements are assumed
by Boeing and are in the price Boeing charges the Navy. The 34 percent is
applied to the Boeing price and was never intended to be a cap on total
infrastructure costs but as an estimate of the Navy direct costs.

Audit Response. The Navy comments are not responsive. The recommendation
addresses the need to determine FIRST Program true infrastructure support costs
as a percentage of the material and repair costs to accurately charge Navy
customers and effectively manage the program. Also, the methodology provides
an effective way of determining exactly how much the FIRST Program is costing
and provide an accurate metric for comparing the FIRST Program to traditional
infrastructure support costs. We request that the Navy reconsider its position on
the recommendation and provide comments on the final report.

       3. Require that Boeing effectively track the cost of Navy inventory in
the Boeing commercial warehouse and determine whether the F/A-18E/F
Integrated Readiness Support Teaming Program will be able to leverage
proven commercial support concepts and shift responsibility for maintaining
inventory to Boeing to eliminate all of the Navy-owned inventory.

Navy Comments. The Navy partially concurred, stating the FIRST contract
includes appropriate provisions for tracking the cost of Navy inventory at Boeing.
The Navy concurred that Boeing should own undelivered consumable as well as
repairable inventory and plans to shift responsibilities under a firm-fixed price
contract.

Audit Response. Although the Navy partially concurred, we do not consider the
comments responsive. The Boeing inventory system fails to meet generally
accepted accounting principles because it does not track the initial cost of items.
We fail to see how the Navy can accurately value its inventory in the Boeing
warehouse or how Navy customers can accurately be charged for items without
this initial cost information, a requirement for any inventory system. As to who
owns wholesale level inventory, Boeing has parts availability requirements under
the performance-based logistics initiative. Consequently, Boeing should be
responsible for all wholesale level inventory, not the Navy. We request that the
Navy reconsider its position on the recommendation and provide comments on
the final report.




                                    27
      4. Require that Boeing purchase parts directly from the original
equipment manufacturers to avoid pass-through costs.

Navy Comments. The Navy did not concur, stating the Navy is buying
performance, not material. The Navy further stated that Boeing is responsible for
selecting the providers that enable Boeing to meet performance and cost targets.

Audit Response. The Navy comments are not responsive. As previously stated,
we believe a significant cost increase to the program exists by the pyramiding of
burden and profit rates when items are not procured from the OEMs and that the
Navy needs to consider these costs and not just performance. We request that the
Navy reconsider its position on the recommendation and provide comments on
the final report.

       5. Initiate appropriate action to charge customers prices that are
based on actual costs.

Navy Comments. The Navy concurred, acknowledging that prices should be
updated to ensure customers are charged prices based on actual contract pricing
information. The Navy stated actual FIRST Program prices will be incorporated
into the FY 2004 Price Update.

Audit Response. Although the Navy concurred, we do not consider the
comments responsive based on its comments to previous recommendations. The
Navy did not agree that it will require Boeing to track actual inventory costs and
did not agree to determine actual infrastructure support costs; consequently, the
Navy has no means to accurately charge its customers. We request that the Navy
reconsider its position on the recommendation and provide comments on the final
report.




                                    28
Appendix A. Scope and Methodology
   We reviewed the BCAs NAVICP and NAVAIR prepared. We also reviewed the
   statement of work and terms and conditions of the FIRST cost-plus incentive fee
   contract with an award fee provision (N00383-01-D-0001H). The contract
   covered procurement of initial and replenishment spares for 519 repairable parts
   and 5,856 consumable parts as well as repairs of the repairable parts. The target
   price for the 2-year base period is $218.7 million. We reviewed the methodology
   and supporting documentation for predicted reliability and availability
   improvements under the FIRST Program and the Navy’s plan for measuring those
   improvements. To assess the Navy’s effectiveness at meeting its goal to reduce
   ownership costs, we reviewed invoices and Boeing’s actual costs for spares
   procurement through March 25, 2002, and repairs requisitioned through
   April 19, 2002. To further assess the reasonableness of repair prices, we obtained
   North Island depot repair costs for F/A-18C/D comparable parts and actual costs
   for E/F repairs completed under the FIRST Program. In addition, we reviewed
   FY 2001 and FY 2002 cost recovery rates for the Defense Logistics Agency and
   the Naval Supply Systems Command and the methodology used for computing
   BCA material maintenance costs and other operations cost. We also reviewed
   FIRST Program inventory levels stored at the Boeing commercial warehouse.

   To assess the reasonableness of the $52.4 million cost avoidance claimed in the
   NAVICP BCA, we compared supporting documentation for BCA in-house prices
   to the actual costs for procurement and repair of spare parts. Specifically, we
   reviewed NAVICP pricing methodology and the historical prices for procurement
   of 147 spare parts and repair of 45 parts with total BCA costs (price multiplied by
   5-year demand) greater than $500,000. The selected items represented a total
   BCA cost (without escalation) of $448 million, 70 percent of the total
   $643.4 million cost of goods sold. We reviewed purchase orders and sales
   invoices for FY 2000 through FY 2001 on 133 parts from Boeing and 7 of its
   suppliers. To identify additional costs related to the FIRST Program, we also
   reviewed the terms and conditions of Boeing’s contracts with those suppliers.

   To assess the reasonableness of the $73.7 million cost avoidance based on
   NAVAIR BCA, we focused our review on the methodology and supporting
   documentation for support equipment, the cost element that represented a 5-year
   cost avoidance of $78.7 million.

   We performed this audit from April 2001 through April 2003 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data
   obtained from Boeing, Northrop Grumman, NAVICP, NAVAIR, the Defense
   Logistics Agency, and the Defense Operations Research and Resource Analysis
   Office to determine audit scope and analyze cost objectives. We also used
   procurement history data obtained from a commercial system. The computer-
   processed data and procurement history data were determined reliable based on a
   comparison to source documents and data output. Although we did not perform a
   formal reliability assessment of the computer-processed data, we determined that
   contract numbers, order dates, and amounts generally agreed with the information

                                       29
    in the computer-processed data. We also pulled hard copy contract files and
    compared them with computer-processed data. We did not find errors that would
    preclude the use of computer-processed data to meet the audit objectives or that
    would change the conclusions in the report.

    GAO High-Risk Area. The GAO has identified several high-risk areas in DoD.
    This report provides coverage of the DoD Inventory Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of Navy controls over the preparation of BCAs developed to support
    total logistics support decisions. Specifically, we reviewed the controls over the
    selection of potential candidates for alternative support approaches, and data
    integrity. We also reviewed management’s self-evaluation applicable to those
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses with the preparation of BCAs as DoD Instruction 5010.40
    defines. The controls over data integrity did not ensure that costs shown in BCAs
    were derived from reliable pricing data and sound judgments. The Assistant
    Secretary of the Navy (Research, Development, and Acquisition), who is
    responsible for acquisition policy, should have established the controls. The
    recommendations in this report, if implemented, will improve procedures for
    preparing BCAs. A copy of the report will be sent to the senior official in charge
    of management controls for the Office of the Assistant Secretary of the Navy
    (Research, Development, and Acquisition).

    Adequacy of Management’s Self-Evaluation. Navy officials identified the
    preparation of BCAs as a part of an assessable unit. Navy officials did not identify
    the specific material management control weaknesses identified by the audit
    because the Navy evaluation covered the whole performance-based logistics
    process and did not focus on the controls over the integrity of data used to prepare
    BCAs.




                                        30
Appendix C. Index of Reviewed Parts
Index C-1. Consumable Parts

         NSN            Part Number                 OEM                        Nomenclature
1560-01-461-7380   74A481700-2011     Boeing                           Arresting Hook Point
1560-01-469-3160   74A345665-2006     Tradco Incorporated              Structural Bracket
1560-01-469-3258   74A345667-2001     ROC-AIRE Corporation             Structural Fitting
1560-01-469-3261   74A345665-2005     Tradco Incorporated              Structural Bracket
1560-01-476-1333   74B328220-211      Hartwell Corporation             Latch Switch
1560-01-480-9973   B93420-1           Moog                             Sleeve Bushing
1560-01-481-0165   B87116-1           Moog                             Accumulator Assembly
1560-01-481-9380   9M680-3B125        Fairchild Fastner Group          Aircraft Latch Assembly
1560-01-481-9405   8655646-1          Raytheon                         Lower Shield
1560-01-481-9465   74A315102-1013     Boeing                           Access Door Brace
1560-01-482-6068   8655646-3          Raytheon                         Upper Shield
1560-01-495-9249   74A341654-2021     Danvo Machining Company          Sleeve Bushing
1620-01-477-5892   AE70102G           Aeroquip Corporation             Elbow Subassembly
1630-01-455-1474   2612805-497        Honeywell                        Disc Brake Stator
1630-01-455-3724   2612801-629        Honeywell                        Disc Brake Stator
1630-01-468-9461   2613985            Honeywell                        Aircraft Heat Shield Wheel
1650-01-463-6947   74B680060-121      Valcor Engineering Corporation   Hydraulic Accumulator
1680-01-454-5035   74A675240-1003     Northrop Grumman                 Cylinder Assembly
1680-01-475-8517   74A211162-2001     Numerical Control Support        Sleeve Bushing
1680-01-476-0159   74A430817-2001     Messier Dowty                    Bracket Adapter
1680-01-476-0160   74A430808-1001     Messier Dowty                    Outer Tube Assembly
1680-01-476-0174   74A430606-1001     Messier Dowty                    Tube Support
1680-01-480-6436   3598000-3          Parker Hannifin                  Flow Control Valve
1680-01-480-6460   3043122-1          Parker Hannifin                  Manifold Flex Assembly
1680-01-481-7742   175239-01-01       Frontier Electronics             Circuit Card
1680-01-481-7754   175233-02-01       Frontier Electronics             Circuit Card
1680-01-485-5682   74A731330-2003     Austin Machine Company           Aft Pylon Fairing
1680-01-485-5688   74A731331-1003     Boeing                           Aft Pylon Fairing
1680-01-485-5779   74A734111-1001     Boeing                           Hook-Mechanism
1680-01-485-5782   74A734113-1001     Boeing                           Lock Assembly Forward
1710-01-478-1528   74A430823-1003     Messier Dowty                    Metal Tube Assembly
1710-01-478-1569   74A430615-1001     Messier Dowty                    Lower Cam Assembly
1710-01-479-5611   7-2666-5           Dowty Yakima                     Cylinder Assembly
1710-01-480-0449   74A430830-2003     Messier Dowty                    Cam Adapter
2910-01-469-3475   2930025-103        Parker Hannifin                  Poppet Valve
2915-01-454-6731   2930018-114        Parker Hannifin                  Fuel Pressurizing Valve
2915-01-454-6734   2930018-115        Parker Hannifin                  Pressurizing Valve/Fuel
2915-01-463-6955   5910769            Hamilton Sundstrand              Liquid Switch
2915-01-469-6202   74B508002-105      Senior Aerospace                 Bellows Assembly
4320-01-467-5272   74B430604-101      Honeywell                        Shaft Seal Assembly
4710-01-272-0491   74A731106-1001     Boeing                           Metal Tube Assembly
4730-01-469-3478   74A588362-2007     Sonfarrel Incorporated           Strainer Fuel Tank
4810-01-455-3707   MC19710-5          M.C. Aerospace Corporation       Linear Valve
4820-01-454-5006   56-4900-1          Sweeney Engineering              Relief Valve
5310-01-472-4321   74B328237-105      Paul R. Briles Incorporated      Assembled Nut/Plain


                                          33
         NSN            Part Number                 OEM                        Nomenclature
5310-01-477-3958   74A430605-2005      Messier Dowty                   Nut Gland
5315-01-455-1431   2611825             Honeywell                       Machine Key
5315-01-455-3635   74A430609-2001      Messier Dowty                   Hollow Pin
5325-01-462-2756   3M1250AC6-9         TPS Aviation                    Turn Lock Stud Assembly
5330-01-477-3955   74B430603-107       Messier Dowty                   Shaft Seal Assembly
5330-01-478-1574   74A430642-2001      Messier Dowty                   Support Tube Ring
5330-01-478-1575   74A430657-2001      Messier Dowty                   Lock Ring Retainer
5340-01-469-1641   74A430616-1009      Messier Dowty                   Access Cover
5365-01-462-2701   74A120953-2001      TPS Aviation                    Machine Thread Plug
5905-01-463-8585   818771-1            Hamilton Sundstrand             Thermal Resistor
5930-01-454-5713   814263-1            Hamilton Sundstrand             Press Switch
5930-01-468-1550   212-6101            Autek Systems                   Electrical Contact Assembly
5985-01-455-2545   3380-8012-0008      M/A COM Incorporated            Antenna
5985-01-455-2550   3400-8006-0004      M/A COM Incorporated            Antenna
5985-01-455-2601   503-1001-105        Boeing                          Antenna
5985-01-455-2602   503-1001-106        Boeing                          Antenna
5995-01-469-2926   74A342681-1013      Northrop Grumman                Aircraft Cover Access
5998-01-465-8634   138040-9            Kaiser Electronics              Circuit Card
6240-01-140-0732   60-3203-3           Grimes Aerospace                Incandescent Lamp
6340-01-454-4015   93160080-117        DNE Technologies Incorporated   Ice Detector
6340-01-454-4016   93210010-000        DNE Technologies Incorporated   Ice Detector
6620-01-454-5717   814289-1            Hamilton Sundstrand             Pressure Indicator
6685-01-454-5715   814271-4            Hamilton Sundstrand             Ambient Sensor
6685-01-465-8638   MT97107449-1        Manufacturing Technologies      Transmitter
No NSN Available   74B330057-105       Norco Incorporated              Holder Assembly
No NSN Available   74B343605-111       Hartwell Corporation            Hinge
No NSN Available   74A731330-2001      Austin Machine Company          Aft Pylon Fairing
No NSN Available   74A345918-1001      A&D Precision Manufacturing     Plate Assembly
No NSN Available   74A345918-1002      A&D Precision Manufacturing     Plate Assembly
No NSN Available   74A345918-1003      A&D Precision Manufacturing     Plate Assembly
No NSN Available   74A345918-1004      A&D Precision Manufacturing     Plate Assembly
Index C-2. New Repairable Parts

        NSN              Part Number             OEM                        Nomenclature
1430-01-455-3659   791660-20           United Technologies        Computer-Signal Data Generator
1560-01-455-3637   74A430800-2013      Messier Dowty              Brace Subassembly
1560-01-455-4868   320-4-50162-103     Engineered Fabrics         Aircraft Fuel Tank
1560-01-468-4151   320-4-50160-105     Engineered Fabrics         Aircraft Fuel Tank
1560-01-468-9446   320-4-50163-105     Engineered Fabrics         Aircraft Fuel Tank
1560-01-478-8261   2741406-3-3         Moog                       Hydraulic Servo Valve
1560-01-480-8207   349951-107          Parker                     Hydraulic Manifold
1620-01-455-3604   74A400940-1003      BF Goodrich                Landing Gear Axle
1620-01-455-3645   74A430901-1007      Messier Dowty              Catapult Launch Bar
1620-01-463-6970   OMP4308-9           Ozone Industries           Aircraft Steering Unit
1620-01-466-8717   74A430600-1013      Messier Dowty              Cylinder and Piston
1620-01-470-8697   74A430804-1005      Messier Dowty              Landing Gear Piston
1620-01-470-8719   74A430602-1003      Messier Dowty              Landing Gear Piston
1630-01-455-1435   2611745-1           Honeywell                  Landing Gear Wheel
1630-01-455-1442   2611992-3           Honeywell                  Multiple Disk Brake
1630-01-455-1444   2611991-2           Honeywell                  Landing Gear Wheel


                                           34
        NSN             Part Number              OEM                      Nomenclature
1630-01-455-1476   2612802-620        Honeywell                 Disc Brake Rotor
1630-01-455-1477   2612804-643        Honeywell                 Disc Brake Stator
1650-01-455-2590   41010230-103       H.R. Textron              Servo Cylinder Assembly
1650-01-455-2591   41010260-106       H.R. Textron              Servo Cylinder Assembly
1650-01-455-3668   997706             Eaton Aerospace-Vickers   Pistons Axial Pump
1650-01-455-4490   3043000-3          Parker                    Servo Cylinder
1650-01-469-1468   349900-1015        Parker                    Servo Cylinder Assembly
1650-01-470-8721   349940-1011        Parker                    Servo Cylinder
1660-01-454-5010   70207-000-1        Hughes-Treitler           Heat Exchanger
1660-01-454-5013   70207-000-2        Hughes-Treitler           Air to Air Heat Exchanger
1660-01-454-5048   814203-2           Hamilton Sundstrand       Air to Air Heat Exchanger
1660-01-454-5712   814237-2           Hamilton Sundstrand       Electric Control Box
1660-01-454-6710   814207-5           Hamilton Sundstrand       Aircraft Cooling Turbine
1660-01-454-8184   814209-2           Hamilton Sundstrand       Air to Air Heat Exchanger
1660-01-461-7291   814211-3           Hamilton Sundstrand       Air to Air Heat Exchanger
1680-01-455-2537   2741392-2-2        Moog                      Electro-Mechanical Actuator
1680-01-455-3691   B87600-005         Moog                      Electro-Mechanical Actuator
1680-01-475-8514   3043032-9          Parker                    Hydraulic Manifold
1680-01-478-0510   210001-30          Frontier Electronics      Display Unit
1680-01-478-2049   2746300-5          Moog                      Hydraulic Motor
1680-01-479-0975   74A326121-1008     Northrop Grumman          Aircraft Wing Spoiler
1680-01-479-1049   74A326121-1007     Northrop Grumman          Aircraft Wing Spoiler
1680-01-480-0498   138200-29          Kaiser Electronics        Interface Control
1680-01-483-0315   138050-19          Kaiser Electronics        Circuit Card Assembly
1710-01-478-1586   74A430601-1001     Messier-Dowty             Actuating Cylinder
1720-01-455-1420   2-7938-3           Dowty Decoto              Repeat Holdback Bar
2520-01-455-2528   2741152-2-1        Moog                      Mechanical Transmission
2520-01-472-6137   2741434-3-4        Moog                      Hydraulic Drive Unit
2840-01-463-6963   763871E            Hamilton Sundstrand       Accessory Gearbox
2925-01-455-2558   74B543001-101      Honeywell                 Starter-Generator
2925-01-479-3620   FV29290G4          Smiths Aerospace          Electronic Component
2925-01-479-3745   FV29390G4          Smiths Aerospace          Electronic Component
2925-01-479-3778   FV29555G9          Smiths Aerospace          Electronic Component
4320-01-454-5041   758913D            Hamilton Sundstrand       Rotary Pump
4320-01-454-5082   2780302-1-2        Honeywell                 Centrifuge Pump Unit
4320-01-455-2564   3920031-113        Parker Hannifin           Hydraulic Reservoir
4320-01-455-2588   3920035-113        Parker Hannifin           Hydraulic Reservoir
4810-01-455-3689   B79995-007         Moog                      Direct Linear Valve
4810-01-469-1460   814201-7           Hamilton Sundstrand       Fluid Pressure Regulating Valve
5895-01-490-6729   1023353G-1         BAE Systems               Antenna Position
5895-01-490-6738   1023388G-1         BAE Systems               Radio Frequency Assembly
5998-01-296-0824   794656-6           United Technologies       Electronic Component
5998-01-465-8626   138140-9           Kaiser Electronics        Electronic Component
5998-01-465-8631   138090-9A          Kaiser Electronics        Circuit Card Assembly
5998-01-465-8633   138180-19A         Kaiser Electronics        Circuit Card Assembly
5998-01-465-8656   138130-9D          Kaiser Electronics        Circuit Card Assembly
5998-01-470-8683   FV29420G2          Smiths Aerospace          Electronic Component Assembly
5998-01-470-8685   FV29170G1          Smiths Aerospace          Electronic Component Assembly
6115-01-455-3692   FH30001G2          Smiths Aerospace          Generator
6115-01-470-8681   FH30000G5          Smiths Aerospace          Alternative Generator
6130-01-480-1870   105E7477G8         Lockheed Johnson City     Power Supply


                                          35
        NSN              Part Number              OEM                       Nomenclature
6130-01-495-6214    063000-1           Goodrich Hella Aerospace   Power Supply
6240-01-473-2020    112443-001         Frontier Electronics       Lamp Assembly
6615-01-482-0902    111E9359G101       Lockheed Johnson City      Flight Control Computer
No NSN Available    138110-9           Kaiser Electronics         Circuit Card Assembly
 Index C-3. Repaired Parts

         NSN             Part Number              OEM                         Nomenclature
 1430-01-455-3659    791660-20         Hamilton Sunstrand         Computer-Signal Data Generator
 1560-01-455-3637    74A430800-2013    Messier Dowty              Brace Subassembly
 1560-01-461-7373    74A481001-2007    Boeing                     Arresting Hook
 1560-01-464-8849    74A172004-1002    Boeing                     Aileron
 1560-01-478-8261    2741406-3-3       Moog                       Hydraulic Servo Valve
 1560-01-480-8207    349951-107        Parker Hannifin            Hydraulic Manifold
 1620-01-455-3645    74A430901-1007    Messier Dowty              Catapult Launch Bar
 1620-01-463-6970    OMP4308-9         Ozone                      Aircraft Steering Unit
 1620-01-466-8717    74A430600-1013    Messier Dowty              Cylinder and Piston
 1620-01-470-8719    74A430602-1003    Messier Dowty              Landing Gear Piston
 1630-01-455-1442    2611992-3         Honeywell                  Multiple Disk Brake
 1630-01-455-1476    2612802-620       Honeywell                  Disc Brake Rotor
 1630-01-455-1477    2612804-643       Honeywell                  Disc Brake, Stator
 1650-01-455-2590    41010230-103      H.R. Textron Inc.          Servo Cylinder Assembly
 1650-01-455-3668    997706            Northrop Grumman           Pistons Axial Pump
 1650-01-455-4490    3043000-3         Parker Hannifin            Servo Cylinder
 1650-01-469-1468    349900-1015       Parker Hannifin            Servo Cylinder Assembly
 1660-01-454-6710    814207-5          Northrop Grumman           Aircraft Cooling Turbine
 1660-01-454-8184    814209-2          Northrop Grumman           Air to Air Heat Exchanger
 1680-01-455-2537    2741392-2-2       Moog                       Electro-Mechanical Actuator
 1680-01-455-3691    B87600-005        Moog                       Electro-Mechanical Actuator
 1680-01-477-4914    138000-29         Kaiser Electronics         Display Unit
 1680-01-478-2049    2746300-5         Moog                       Hydraulic Motor
 1680-01-478-9813    74A211001-1017    Boeing                     Horizontal Stabilizer
 1680-01-479-0937    74A551800-1017    Boeing                     Aircraft Fuel Tank
 1680-01-480-0498    138200-29         Kaiser Electronics         Interface Control
 1680-01-482-0835    138070-9          Kaiser Electronics         Circuit Card Assembly
 1680-01-483-0315    138050-19         Kaiser Electronics         Circuit Card Assembly
 1720-01-455-1420    2-7938-3          Dowty Decoto               Repeat Holdback Bar
 2520-01-472-6137    2741434-3-4       Moog                       Hydraulic Drive Unit
 2840-01-463-6963    763871E           Northrop Grumman           Accessory Gearbox
 4320-01-454-5041    758913D           Northrop Grumman           Rotary Pump
 4320-01-454-5082    2780302-1-2       Honeywell                  Pump Unit, Centrifugation
 4320-01-455-2564    3920031-113       Parker                     Hydraulic Reservoir
 4320-01-455-2588    3920035-113       Parker                     Hydraulic Reservoir
 4810-01-469-1460    814201-7          Northrop Grumman           Fluid Pressure Regulating Valve
 5998-01-296-0824    794656-6          Hamilton Sunstrand         Electronic Component
 5998-01-465-8626    138140-9          Kaiser Electronics         Electronic Component
 5998-01-465-8631    138090-9A         Kaiser Electronics         Circuit Card Assembly
 6115-01-455-3692    FH30001G2         Smiths, Leland Division    Generator
 6130-01-454-4025    063000-1          BF Goodrich                Power Supply
 6615-01-482-0902    111E9359G101      BAE Johnson City           Flight Control Computer
 No NSN Available    138110-9          Kaiser Electronics         Circuit Card Assembly


                                           36
       NSN             Part Number            OEM               Nomenclature
No NSN Available   74A350006-1023    Boeing         Moveable Canopy
No NSN Available   74A730401-1017    Boeing         Aircraft Pylon




                                         37
Appendix F. Management Comments on the
Findings and Audit Response

Navy Comments on Finding A
    Implementation of Performance-Based Logistics. The Navy commented that
    the FY 2003-2007 Quadrennial Defense Review mandated implementation of
    performance-based logistics with appropriate metrics designed to improve Fleet
    readiness. The Navy stated that the performance-based logistics program is a
    critical focal point for improving support and reducing total ownership costs for
    Navy-managed weapons systems. The Navy also commented that when fully
    implemented, performance-based logistics allow the Navy to reduce inventory and
    provide increased component availability.

    Audit Response. As stated in the President’s Management Agenda, “program
    proponents bear the burden of proof to demonstrate that the program they
    advocate actually accomplish their goals, and do so better than alternative
    spending of the same money. . . . Many agencies and programs lack rigorous data
    or evaluations to show that they work.” Unfortunately, the Navy has not shown
    that the FIRST Program will reduce total ownership costs; moreover, the FIRST
    Program appears to be significantly more costly than other alternatives. The Navy
    will be unable to effectively assess any inventory reductions or increased
    component availability until after the FIRST Program becomes a fully
    implemented performance-based logistics program where the contractor owns the
    inventory.

    Business Case Analysis Decisions. The Navy stated that its business decisions
    for each performance-based logistics initiative are determined by a BCA designed
    to quantify and compare the benefits and costs the Navy would incur for both
    traditional and performance-based logistics support scenarios. A performance-
    based logistics contract is awarded if the BCA results in a return on investment of
    break-even or better in the NWCF-Supply Management.

    Audit Response. As shown in Finding A, the Navy did not achieve a “break-
    even or better” in the NWCF-Supply Management.

    Contractor Responsibility, Inventory Ownership, and Performance Metrics.
    The Navy commented that performance-based logistics transfer some of the
    Navy’s risk by increasing contractor responsibility and that inventory ownership is
    considered in full performance-based logistics arrangements. However,
    contractors are not willing to assume that level of risk responsibility. The Navy
    also commented that performance-based logistics contracts require fewer metrics.

    Audit Response. Performance-based logistics arrangements where the Navy
    owns the inventory leave most of the risk with the Navy, significantly diminishing
    any value the performance-based logistics initiative provides. The arrangements
    also do not provide an effective means of evaluating improvements in metrics
    such as fill rate and customer response time. The metrics are directly related to

                                        52
stated that repair data associated with the F/A-18 C/D parts were less accurate
than the repair matrix and cited three examples where limited nonrepair cost data
were used to calculate repair prices.

Audit Response. The actual repair prices and data available from North Island
were also tools for validating the accuracy of the repair prices derived from the
repair matrix used in the BCA. Coincidently, Boeing used the data associated
with the F/A-18 C/D aircraft to negotiate prices for F/A-18 E/F repairs performed
by the Naval Aviation Depot. While the Navy cited examples where limited
repair data were available, the Navy also failed to address those examples where
larger numbers of repairs were performed and the repair costs were significantly
less than those used in the BCA. The three examples where limited nonrepair cost
data were used to calculate repair prices were removed.

Cost Recovery Rates for Obsolescence and Net Loss. The Navy commented
that the FIRST contract clearly shows that obsolescence and net loss are
responsibilities borne by Boeing. The Navy then states that because FIRST is
initially a cost reimbursable contract, it is correct that Boeing will pass any costs
for obsolescence and net loss to the Navy. The Navy also commented that Boeing
used $957,000 to procure five items in order to mitigate risk of obsolescence.

Audit Response. The Navy remains responsible for all the costs associated with
obsolescence and net loss until the Navy transfers ownership responsibility for
inventory to Boeing. Parts purchased under FIRST that become obsolete or lost
will be Navy parts and not Boeing parts. Boeing also stated that it did not include
costs for obsolescence and net loss in its proposal for the base period.
Consequently, the Navy’s business case needs to equally reflect the costs for
obsolescence and net loss. We agree that the $1 million identified in the report for
items that became obsolete did not truly relate to obsolete items but more to items
being procured for the life of the program. We removed the statement from the
report.

NAVAIR Cost Avoidances. The Navy commented that the NAVAIR BCA
included in the audit was not relevant to the FIRST contract.

Audit Response. The audit clearly segregated the data from the NAVICP and
NAVAIR BCAs. We included the NAVAIR BCA data because it was included in
the notification to Congress.

Nontraditional Methodology Used to Calculate the In-house Cost of
Managing Consumable Items. The Navy contends that the savings relating to
the in-house cost of managing consumable items relates to the incorrect
procurement prices the IG DoD used.

Audit Response. As previously stated, we believe the audit used the correct
procurement prices and therefore, the in-house cost of managing consumable
items was overstated in the NAVICP BCA.




                                     55
Navy Comments on Finding B
    Failure to Reduce Repair Cycle Time and Achieve a Minimum 10-Percent
    Reliability Improvement. The Navy commented that the 10-percent reliability
    growth was anticipated over the program life-cycle, not in a 2-year initial
    performance period. Further, the lack of an objective metric in no way invalidates
    reliability improvements needed to assure program life-cycle goals are achieved.
    The Navy stated that the acquisition plan never anticipated a repair cycle time
    metric and basically that the reduction from 60-day organic to 45-day repair
    turnaround time was irrelevant on a performance-based contract. The Navy also
    stated that not removing the requirements from its acquisition plan was an
    “administrative shortfall.”

    Audit Response. The Navy stated in its acquisition plan that to meet the desired
    objectives of FIRST and attain the estimated 13-percent life-cycle cost reduction,
    the Government-industry team must be able to reduce repair cycle time of failed
    components and achieve a minimum 10-percent reliability improvement from
    baseline calculations. We fail to see how the Navy could achieve the desired
    objectives of FIRST and attain the 13-percent life-cycle cost reduction without
    establishing baseline metrics that measure performance and establishing the
    metrics as performance-based contractual requirements. Consequently, we
    believe the requirements were appropriate in the acquisition plan and should have
    been included in the FIRST contract.

    Reduce and Effectively Monitor Infrastructure Support Costs. The Navy
    does not agree that it should develop procedures that track infrastructure costs as a
    percentage of actual cost of material because the Navy BCA determined FIRST
    was cost effective. The Navy also stated that controls that ensure costs are
    consistent with the BCA are in place. The Navy also commented that it did not
    understand the 77-percent infrastructure cost the IG DoD calculated.

    Audit Response. We do not agree that the Navy used appropriate data to
    calculate its BCA and therefore, do not agree with the conclusion that FIRST is
    cost effective. Developing procedures that track support costs as a percentage of
    actual material costs is a standard way of effectively tracking and evaluating
    infrastructure support costs. We see little value to controls that ensure costs are
    consistent with the BCA because of the inaccuracy of the BCA. We explained our
    infrastructure cost calculation to the Navy on several occasions, shared data, and
    received no questions from Navy representatives relating to not understanding the
    methodology.

    Navy Inventory Investment. The Navy commented that the IG DoD did not
    recognize the difference in costs/risk for a contractor to invest in high cost
    repairable inventories compared to the costs/risk for investment in consumable
    type materials. The Navy also commented that when the FIRST contract
    transitions to a firm-fixed-price contract any new material (consumables and
    repairables) manufactured and placed in Boeing’s warehouse will be owned by
    Boeing until it is shipped to Navy customers. The Navy stated the audit did not
    address difficulties of contractor ownership of material in a repairable
    environment. The Navy also does not agree that funding $54 million of inventory

                                         56
stored in the Boeing commercial warehouse significantly reduces the performance
burden on Boeing.

Audit Response. We fully recognize that the cost/risk of repairable and
consumable items inventories stored in the Boeing commercial warehouse rests
with the Navy, the owner of the inventory. We agree that Boeing should own all
inventory in its commercial warehouse when the contract transitions to firm-fixed
price, and we recognize the difficulties of contractor ownership in a repairable
environment. We also believe for the FIRST concept to be fully tested, Boeing
must assume the cost/risk for inventory. As to the $54 million of Navy-owned
inventory reducing the performance burden on Boeing, parts availability is
directly related to inventory levels, so providing any Navy-owned inventory
reduces the performance burden on the contractor. The goal of any performance-
based contract is to shift to the contractor the responsibility for determining
inventory levels and the associated cost/risk of owning inventory.
Procuring Items Directly From the OEM to Reduce Pass-Through Costs.
The Navy believes that FIRST is not a parts contract and that it is Boeing’s
responsibility to determine sources of supply that enable Boeing to deliver
performance and control costs.

Audit Response. We believe it is difficult to make a case that overall the FIRST
contract is saving the Navy money when on an individual parts basis, the prices
are significantly higher than those that would be paid to the OEMs. The use of a
program integrator that procures items though a subsystem integrator, who in turn
procures the items from the OEM, greatly increases individual parts costs. That
situation is exactly why DoD developed the spare parts breakout program for
procuring items directly from the OEMs.

Accurately Charge Fleet Customers. The Navy commented that costs will
ultimately be spread across applicable items and that NAVICP will recover no
more than the cost incurred under the contract.

Audit Response. NAVICP was unable to accurately charge fleet customers
because the Boeing inventory system did not track actual costs to procure or repair
items. We believe the Navy should charge its customers prices representative of
the cost to procure, repair, manage, and supply the items to establish basic
accountability for the FIRST program.

Management Controls. The Navy commented that the data used in the BCA
were appropriately analyzed and reviewed.

Audit Response. The Navy basically used the “best available pricing data” to
include Boeing estimates for the without FIRST portion of the BCA without any
further analysis. The audit identified additional data available from the system
integrator, the OEMs, and the depots that was significantly different from the data
the Navy used. We believe the Navy needs to evaluate its “best available pricing
data” to determine its accuracy before using data that support a BCA decision.

Addendum 1. The Navy commented that the audit report does not include
examples of the FIRST Program benefits. The Navy provided examples relating

                                    57
to allowance effectiveness, backorder burndown, total asset visibility,
supportability, integrated supply support, and customer satisfaction. The Navy
commented that the USS Abraham Lincoln deployed 4 months early and that its
cruise was extended to nearly 10 months, which was unprecedented and both the
USS Abraham Lincoln and the USS Nimitz exceeded the standard of excellence
for carrier allowance effectiveness for range and depth. The Navy also provided
comments from the Vice Chief of Naval Operations made in his March 2003
testimony before the House Armed Services Subcommittee on Readiness citing
FIRST as a performance-based logistics success and noting supply availability for
the F/A-18E/F was at 85 percent versus 62 percent for the F/A-18C/D aircraft and
positive customer satisfaction.

Audit Response. The audit focused on the savings the Navy claimed in the BCA
and the Navy’s BCA did not quantify any of the FIRST program benefits in
Addendum 1. Concerning the USS Abraham Lincoln and the USS Nimitz, the
Navy previously commented that 15,234 requisitions were filled since May 2001
under FIRST. We found that DLA filled 80,524 requisitions during the same
period and is also responsible for the success of the carriers. The Vice Chief of
Naval Operations also commented in his March 2003 testimony that substantial
investments made in spare parts “ . . . has paid off in spades because the
demonstrated readiness surge today of seven battle groups forward deployed and
the readiness numbers look really good with those folks, I think is a clear
indication of the payoff of the investment in parts.” We believe that a fair
availability comparison between the F/A-18E/F and the F/A-18C/D aircraft is
difficult because of the significant differences in numbers and age of aircraft
supported and because the FIRST contract is funded at 100 percent of
requirements while traditional support for the F/A-18C/D is funded at less than
100 percent of requirements. We also believe it would be natural for customer
feedback to be more positive for programs funded at 100 percent of the
requirements versus programs funded at less than 100 percent.

Addendum 2. The Navy provided examples of prices used in the audit that came
from the FIRST contract.

Audit Response. During the audit, we visited OEMs to determine the costs for
individual parts used in the BCA. The majority of the parts we reviewed were
new F/A-18E/F aircraft items and had not been procured under traditional
contracting methods. Those parts were either procured under the aircraft
development contracts or the FIRST contract. The OEMs visited indicated that
DoD could obtain the same prices as Boeing.

Addendum 3. The Navy provided a decision tree on how to determine prices for
the traditional Government support side of a BCA and stated the decision tree was
a sound approach to determine prices.

Audit Response. The Navy’s decision tree relies only on data readily available in
Navy systems or from the contractor’s proposed bill of materials without
validating the reliability of the price, determining whether better data is available
at the OEMs, or applying any learning curve associated with various phases under
which the parts were procured.


                                     58
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Logistics, Plans, and Programs)
  Director, Acquisition Initiatives
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command
  Commanding Officer, Naval Air Station, Lemoore
  Commanding Officer, Naval Aviation Depot, North Island
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point, Philadelphia

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy

                                          59
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         60
Department of the Navy Comments




                    61
62
63
64
65
66
     Final Report
      Reference




     Revised
     Pages 7, 11,
     24, 45, and
     51




67
Final Report
 Reference




Revised
Page 13




               68
69
70
71
72
73
74
75
76
77
Final Report
 Reference




Darkened
areas of this
report
represent
contractor
proprietary
data that has
been deleted.




                78
     Final Report
      Reference




     Darkened
     areas of this
     report
     represent
     contractor
     proprietary
     data that has
     been deleted.




79
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Robert K. West
Henry F. Kleinknecht
Patrick J. Nix
Myra M. Frank
Joseph P. Bucsko
Jason T. Steinhart
Nicole A. Lukacs
Matthew J. Rok
Thomas G. Daquano
Shannon L. Strang
Michael B. Vandesteene
